<html>
<title> - HYDRAULIC FRACTURING: BANNING PROVEN TECHNOLOGIES ON POSSIBILITIES INSTEAD OF PROBABILITIES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                          HYDRAULIC FRACTURING:
                      BANNING PROVEN TECHNOLOGIES
                            ON POSSIBILITIES
                        INSTEAD OF PROBABILITIES

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             APRIL 23, 2015

                               ----------                              

                           Serial No. 114-16

                               ----------                              

 Printed for the use of the Committee on Science, Space, and Technology





































                         HYDRAULIC FRACTURING:
                      BANNING PROVEN TECHNOLOGIES
                            ON POSSIBILITIES
                        INSTEAD OF PROBABILITIES

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 23, 2015

                               __________

                           Serial No. 114-16

                               __________

 Printed for the use of the Committee on Science, Space, and Technology





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://science.house.gov
       
       
      
                                     ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-221 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
          
       
       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
BILL POSEY, Florida                  MARC A. VEASEY, Texas
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma            DON S. BEYER, JR., Virginia
RANDY K. WEBER, Texas                ED PERLMUTTER, Colorado
BILL JOHNSON, Ohio                   PAUL TONKO, New York
JOHN R. MOOLENAAR, Michigan          MARK TAKANO, California
STEVE KNIGHT, California             BILL FOSTER, Illinois
BRIAN BABIN, Texas
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia




















                            C O N T E N T S

                             April 23, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     8
    Written Statement............................................     9

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    10
    Written Statement............................................    11

                               Witnesses:

Ms. Christi Craddick, Chairman, Railroad Commission of Texas
    Oral Statement...............................................    13
    Written Statement............................................    16

Dr. Donald Siegel, Chair of Earth Sciences, Syracuse University
    Oral Statement...............................................    23
    Written Statement............................................    25

Mr. Simon Lomax, Western Director, Energy in Depth
    Oral Statement...............................................    76
    Written Statement............................................    78

Mr. Elgie Holstein, Senior Director for Strategic Planning, 
  Environmental Defense Fund
    Oral Statement...............................................    83
    Written Statement............................................    85

Discussion.......................................................    98

             Appendix I: Answers to Post-Hearing Questions

Ms. Christi Craddick, Chairman, Railroad Commission of Texas.....   126

Dr. Donald Siegel, Chair of Earth Sciences, Syracuse University..   136

Mr. Simon Lomax, Western Director, Energy in Depth...............   165

Mr. Elgie Holstein, Senior Director for Strategic Planning, 
  Environmental Defense Fund.....................................   173

            Appendix II: Additional Material for the Record

Documents submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   180

Documents submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   377

Document submitted by Representative Suzanne Bonamici, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   412

 
                         HYDRAULIC FRACTURING:
                      BANNING PROVEN TECHNOLOGIES
                            ON POSSIBILITIES
                        INSTEAD OF PROBABILITIES

                              ----------                              


                        THURSDAY, APRIL 23, 2015

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 9:02 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Welcome to today's hearing on the science behind hydraulic 
fracturing. I'll recognize myself for an opening statement and 
then the Ranking Member.
    The combination of hydraulic fracturing and directional 
drilling, called ``fracking,'' is arguably one of the most 
significant technological advancements in the history of the 
oil and gas industry. This technological breakthrough has 
helped create hundreds of thousands of jobs, been the catalyst 
for a resurging manufacturing sector, and has enabled our 
nation to become more energy independent. But as with any type 
of technological progress from oil and gas development, any 
risk must be evaluated carefully by the use of verifiable 
science.
    Unfortunately, opponents of hydraulic fracturing make 
claims based on the possibility and not the probability of 
associated risk. The Environmental Protection Agency has used 
this agenda-driven approach to wrongly assert a connection 
between hydraulic fracturing and groundwater contamination.
    For example, in Parker County, Texas, the EPA issued an 
``unprecedented order'' that halted natural gas development 
only to have the Texas Railroad Commission investigate and find 
the EPA was wrong. In Pavillion, Wyoming, the EPA released a 
draft report that claimed hydraulic fracturing caused water 
contamination. However, it was later discovered that the report 
had several glaring weaknesses.
    Among them, the report failed to take into account 
naturally occurring natural gas, it was not peer-reviewed, it 
involved poor sampling and lacked data transparency. The EPA 
was forced to abandon its investigation. Then in Dimock, 
Pennsylvania, the EPA reinitiated an investigation into 
groundwater contamination after it had at first agreed there 
was no contamination. Seven months later, the EPA indicated 
that oil and gas development was not the cause of the 
contamination. It appears that the decision to reinitiate the 
investigation was based on political pressure from activists 
who oppose hydraulic fracturing.
    It is incredible, given their track record, that the EPA is 
now working on another large study to suggest a causal 
connection between hydraulic fracturing and groundwater 
contamination. Their refusal to accept good science knows no 
bounds, which is why we should be suspect of other findings by 
the EPA. Their political agenda drives their science agenda.
    Perhaps most troubling is that EPA's study of fracking does 
not include a risk assessment in their analysis. This means the 
study will be focused on possible problems with hydraulic 
fracturing rather than what is likely or probable. The mere 
possibility that something may occur will do little to help 
regulators evaluate the overall process.
    The science overwhelmingly shows that hydraulic fracturing 
can be done in an environmentally safe manner. Even the 
Administration agrees and has repeatedly said that potential 
risks can be avoided through modern technologies based on sound 
science. President Obama has stated that ``we should strengthen 
our position as the top natural gas producer.'' And that the 
natural gas boom, made possible by hydraulic fracturing, has 
led to ``greater energy independence, and we need to encourage 
that.''
    In fact, even the current Administrator of the EPA said, 
``There's nothing inherently dangerous in fracking that sound 
engineering practices can't accomplish.'' Then why does the EPA 
repeatedly and publicly begin with the premise that hydraulic 
fracturing causes water contamination only to be forced to 
retract their premise after the claims are subjected to 
scientific scrutiny? Meanwhile, the allegations make headlines; 
the retractions are footnotes.
    The EPA's bias against fracking is the opposite of the 
accepted scientific method. Hydraulic fracturing is a proven, 
safe technology that has made America an energy leader. Yet 
there are still those that believe that regardless of the 
science, the process should be banned.
    Activists have spread misinformation about the science in 
an attempt to convince Americans that there is no way fracking 
can be done safely. The Administration relies on questionable 
studies and reports that are paid for, peer-reviewed by, and 
disseminated by a network of environmentalists with an 
ideological agenda.
    Using scare tactics to impede the development of oil and 
gas will cost our communities jobs, our states revenue, and 
will force us to increase our dependence on foreign oil. Safe 
domestic natural gas production has benefited the environment, 
the economy, and the hardworking families who now enjoy reduced 
energy costs.
    [The prepared statement of Chairman Smith follows:]

             Prepared Statement of Chairman Lamar S. Smith

    The combination of hydraulic fracturing and directional drilling, 
called ``fracking,'' is arguably one of the most significant 
technological advancements in the history of the oil and gas industry.
    This technological breakthrough has helped create hundreds of 
thousands of jobs, been the catalyst for a resurging manufacturing 
sector, and has enabled our nation to become more energy independent. 
But as with any type of technological progress from oil and gas 
development, any risks must be evaluated carefully with the use of 
verifiable science.
    Unfortunately, opponents of hydraulic fracturing make claims based 
on the possibility and not the probability of associated risks. The 
Environmental Protection Agency (EPA) has used this agendadriven 
approach to wrongly assert a connection between hydraulic fracturing 
and ground water contamination.
    For example, in Parker County, Texas, the EPA issued an 
``unprecedented'' order that halted natural gas development only to 
have the Texas Railroad Commission investigate and find the EPA was 
wrong. In Pavillion, Wyoming, the EPA released a draft report that 
claimed hydraulic fracturing caused water contamination. However, it 
was later discovered that the report had several glaring weaknesses.
    Among them, the report failed to take into account naturally 
occurring natural gas, it was not peer reviewed, it involved poor 
sampling and lacked data transparency. The EPA was forced to abandon 
its investigation. Then in Dimock, Pennsylvania, the EPA reinitiated an 
investigation into ground water contamination after it had at first 
agreed there was no contamination. Seven months later, the EPA 
indicated that oil and gas development was not the cause of the 
contamination. It appears that the decision to reinitiate the 
investigation was based on political pressure from activists who oppose 
hydraulic fracturing.
    It is incredible, given their track record, that the EPA is now 
working on another large study to suggest a causal connection between 
hydraulic fracturing and ground water contamination. Their refusal to 
accept good science knows no bounds, which is why we should be suspect 
of other findings by the EPA. Their political agenda drives their 
science agenda.
    Perhaps most troubling is that EPA's study of fracking does not 
include a risk assessment in their analysis. This means the study will 
be focused on possible problems with hydraulic fracturing rather than 
what is likely or probable. The mere possibility that something may 
occur will do little to help regulators evaluate the overall process.
    The science overwhelmingly shows that hydraulic fracturing can be 
done in an environmentally safe manner. Even the Administration agrees 
and has repeatedly said that potential risks can be avoided through 
modern technologies based on sound science.
    President Obama has stated that ``we should strengthen our positon 
as the top natural gas producer.'' And that the natural gas boom, made 
possible by hydraulic fracturing, has led to "greater energy 
independence, [and] we need to encourage that.''
    In fact, even the current Administrator of the EPA said, ``There's 
nothing inherently dangerous in fracking that sound engineering 
practices can't accomplish.'' Then why does the EPA repeatedly and 
publicly begin with the premise that hydraulic fracturing causes water 
contamination only to be forced to retract their premise after the 
claims are put to scientific scrutiny?
    Meanwhile, the allegations make headlines; the retractions are 
footnotes. The EPA's bias against fracking is the opposite of the 
accepted scientific method. Hydraulic fracturing is a proven, safe 
technology that has made America an energy leader. Yet there are still 
those that believe that regardless of the science, the process should 
be banned.
    Activists have spread misinformation about the science in an 
attempt to convince Americans that there is no way fracking can be done 
safely. The Administration relies on questionable studies and reports 
that are paid for, peer-reviewed by, and disseminated by a network of 
environmentalists with an ideological agenda.
    Using scare tactics to impede the development of oil and gas will 
cost our communities jobs, our states revenue, and will force us to 
increase our dependence on foreign oil. Safe domestic natural gas 
production has benefited the environment, the economy and the 
hardworking families who now enjoy reduced energy costs.

    Chairman Smith. And that concludes my opening statement, 
and the Ranking Member, the gentlewoman from Texas, Ms. 
Johnson, is recognized for her opening statement.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman, 
and let me thank our witnesses for being present. I am from 
Texas and I served with your father, I believe, in the Texas 
House. He was there when I got there and I think he's still 
there and I got there in '73.
    I am pleased that the oil and gas industry has done so well 
and most especially during the Obama Administration's tenure. 
However, I'm also a nurse by training and I am sensitive to the 
need to protect public health and environment, even as we 
develop new fossil fuels resources.
    This hearing is advertised as being about the science of 
fracking, but the majority's witnesses consist of state 
economic regulation and development officials representative of 
a firm that was set up to run public relations for the fracking 
industry and a scientist who has been paid by one of the 
largest fracking firms in the country. That does not sound like 
a promising panel to honestly examine the scientific questions.
    Looking at the majority's hearing materials and testimony, 
it is clear that this is a hearing designed to give a platform 
for the fracking industry to attack those who question the 
safety and practices within the industry. In particular, there 
is a focus on undermining local communities that are 
considering or perhaps have adopted limits or bans on fracking.
    More than 500 local communities, including some in my home 
State of Texas, have raised concerns about the practice of 
fracking and have considered or passed bans to restrict 
fracking activities. These are our constituents who are dealing 
with real issues, real environmental and public health 
implications. We should not belittle or diminish their concerns 
or simply dismiss them as unsophisticated. Instead, I'm going 
to suggest that the answer to calming the fears of local 
communities is not to be found in attacking their motives or 
information, but through more transparency by the industry and 
more effective regulation by states and the Federal Government.
    People have concerns about the fracking industry because 
they can see it is largely unchecked. For example, in the State 
of Colorado with over 52,000 active fracking wells, the State 
has only 40 inspectors. West Virginia has 56,000 active wells 
and as of 2011 just 20 inspectors.
    Pollution of drinking water, whether from fracking or 
flawed construction of the well, are from surface waste from 
the site moving into aquifers has occurred at least 248 times 
between 2008 and 2014 in Pennsylvania. We actually do not know 
how many incidences in total there have been because the State 
did not start collecting statistics on incidences until 2014.
    If we had more transparency, more accountability, and more 
oversight, local communities would be able to make well-
informed choices. However, building an oversight hearing around 
public relations campaigns to dismiss those concerns of local 
communities not only does a disservice to members of this 
committee, it also does nothing to increase the trust of the 
fracking industry in those communities.
    In closing, I would argue that it is not some hypocritical 
smear campaign by the Federal Government, but rather repeated 
attacks against EPA and campaigns of doubt waged by opaque 
industry that have stoked mistrust along--among the American 
people. This hearing is likely to have the unintended 
consequence of further stoking mistrust among the American 
people.
    Justice Louis Brandeis once said, ``sunlight is said to be 
the best disinfectant.'' I can't agree more. It is time that 
our local communities are provided with transparent information 
from industry to better understand the environmental and public 
health risk posed by hydraulic fracturing activities.
    Mr. Chairman, I think the problem is not that local 
communities are given bad information from activists; it is 
that local communities cannot get accurate information about 
the environmental and health impacts resulting from oil and 
natural gas development using high-volume fracking techniques.
    [The prepared statement of Ms. Johnson of Texas follows:]

          Statement submitted by full Committee Ranking Member
                         Eddie Bernice Johnson

    Thank you Mr. Chairman, and thank you to our witnesses for being 
here today.
    I am from Texas, and like you I am also pleased that the oil and 
gas industry has done so well during the Obama Administration's tenure. 
However, I am also a nurse by training and I am sensitive to the need 
to protect the public health and the environment even as we develop new 
fossil fuel resources.
    This hearing is advertised as being about the science of fracking, 
but the Majority's witnesses consist of a state economic regulation and 
development official, a representative of a firm that was set up to run 
public relations for the fracking industry, and a scientist who has 
been paid by one of the largest fracking firms in the country. That 
does not sound like a promising panel to honestly examine scientific 
questions.
    Looking at the Majority's hearing materials and testimony, it is 
clear this is a hearing designed to give a platform for the fracking 
industry to attack those who question the safety of practices within 
that industry. In particular, there is a focus on undermining local 
communities that are considering, or perhaps have adopted, limits or 
bans on fracking.
    More than 500 local communities, including some in my home state of 
Texas, have raised concerns about the practice of fracking and have 
considered, or passed, bans to restrict fracking activity. These are 
our constituents, who are dealing with real issues, with real 
environmental and public health implications. We should not belittle or 
diminish their concerns--or simply dismiss them as unsophisticated.
    Instead, I am going to suggest that the answer to calming the fears 
of local communities is not to be found in attacking their motives or 
information, but through more transparency by industry and more 
effective regulation by states and the federal government.
    People have concerns about the fracking industry because they can 
see it is largely unchecked. For example, in the state of Colorado, 
with over 52,000 active fracking wells, the state has only 40 
inspectors. West Virginia has over 56,000 active wells and (as of 2011) 
just 20 inspectors. Pollution of drinking water, whether from fracking, 
or flawed construction of the well, or from surface waste from the site 
moving into aquifers, has occurred at least 248 times between 2008 and 
2014 in Pennsylvania--we actually do not know how many incidents in 
total there have been because the state did not start collecting 
statistics on incidents until 2014.
    If we had more transparency, more accountability and more 
oversight, local communities would be able to make well-informed 
choices. However, building an oversight hearing around a public 
relations campaign to dismiss the concerns of local communities not 
only does a disservice to Members of this Committee, it also does 
nothing to increase trust of the fracking industry in thosecommunities.
    In closing, I would argue that it is not some ``hypocritical smear 
campaign'' by the federal government, but rather repeated attacks 
against EPA, and campaigns of doubt waged by an opaque industry, that 
have stoked mistrust among the American people. This hearing is likely 
to have the unintended consequence of further stoking mistrust among 
the American people.
    Justice Louis Brandeis once said, ``Sunlight is said to be the best 
of disinfectants.'' I couldn't agree more. It is time that our local 
communities are provided with transparent information from industry to 
better understand the environmental and public health risks posed by 
hydraulic fracturing activities.
    Mr. Chairman, I think the problem is not that local communities are 
given bad information from activists, it is that local communities 
cannot get accurate information about the environmental and health 
impacts resulting from oil and natural gas development using high 
volume fracking techniques.

    Ms. Johnson of Texas. Now, before I yield back, I want to 
attach to my statement two studies--excuse me--the Malone and 
another study and the NRDC issue paper on fracking spills. And 
I ask unanimous consent to attach those.
    Chairman Smith. Without objection, so ordered.
    [The appears in Appendix II]
    Ms. Johnson of Texas. Thank you. I yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    Let me introduce our witnesses today. And our first 
witness, Ms. Christi Craddick, is Chairman of the Texas 
Railroad Commission. Since Ms. Craddick began her role at the 
Commission in 2012, she has pushed to maximize the 
effectiveness and efficiency of an energy industry that is 
helping to drive the State's economic success. Prior to her 
tenure at the Texas Railroad Commission, Ms. Craddick had a 
career as an attorney specializing in oil and gas, water, tax 
issues, electric deregulation, and environmental policy. Ms. 
Craddick earned both her bachelor's degree and her doctor of 
jurisprudence from the University of Texas at Austin.
    Our second witness is Dr. Donald Siegel, and he is the 
Jessie Page Heroy Professor and Department Chair of the 
Department of Earth Sciences at Syracuse University. Dr. Siegel 
has worked at Syracuse University since 1982 and currently 
teaches elementary- and graduate-level courses in Earth 
science, groundwater movement, and the faith of contaminants in 
groundwater.
    Prior to joining Syracuse University, Dr. Siegel worked at 
the U.S. Geological Survey in the Minnesota District. Among 
many other accomplishments, Dr. Siegel has served as a member 
on numerous panels of the National Academy of Science and is 
Chair of the National Research Council Water Science and 
Technology Board. Dr. Siegel received his bachelor's degree in 
geology from the University of Rhode Island, his master's 
degree in geology from Pennsylvania State University, and his 
doctorate in hydrogeology from the University of Minnesota.
    Our third witness, Mr. Simon Lomax, is the Western Director 
of Energy In Depth, a research, education, and public outreach 
program of the Independent Petroleum Association of America. 
Before working at Energy In Depth, Mr. Lomax spent 15 years 
working in journalism as the Editorial Director of the ``Energy 
Now'' TV show and Energy and Environmental Reporter at 
Bloomberg News and a Senior Editor at Argus Media, Inc. Mr. 
Lomax holds a bachelor's in journalism from the Queensland 
University of Technology in Brisbane, Australia.
    Our final witness, Mr. Elgie Holstein, is the Senior 
Director for Strategic Planning at the Environmental Defense 
Fund. Prior to joining the Environmental Defense Fund, Mr. 
Holstein was the Senior Advisor to the Obama Presidential 
Campaign on energy and environment policy matters and co-
Director of the Department of Energy Presidential Transition 
Team. Among many other roles, Mr. Holstein has also held a 
position of Assistant Secretary of the National Oceanic and 
Atmospheric Administration and Chief of Staff of the U.S. 
Department of Energy.
    We appreciate all of you being here today and look forward 
to your testimony. And we'll begin with Ms. Craddick.

               TESTIMONY OF MS. CHRISTI CRADDICK,

             CHAIRMAN, RAILROAD COMMISSION OF TEXAS

    Ms. Craddick. Good morning. Chairman Smith, Ranking Member 
Johnson, and members of the committee, my name is Christi 
Craddick, and as Chairman of the Railroad Commission of Texas, 
I appreciate the opportunity to provide testimony and 
information at today's hearing.
    This is an important issue with a direct impact on Texas 
today, as well as other states throughout the United States, 
affecting thousands of jobs across the country and our nation's 
economy.
    Since hydraulic fracturing has become a widely used 
practice, it has been surrounded by misinformation, propagated 
by groups more interested in prohibiting the technique than 
understanding the complex science of safe and responsible 
minerals extraction. Setting the hyperbole aside reveals a 
simple truth: There are no confirmed instances of groundwater 
contamination caused by hydraulic fracturing in Texas. With 
proper oversight, hydraulic fracturing is safe.
    The thriving energy sector in Texas is due in large part to 
the diligence of the Railroad Commission, which is responsible 
for ensuring the safety of oil and gas production statewide 
through a rigorous process of permitting, monitoring, and 
inspecting operations. For 90 years, the Commission has served 
as the State's primary regulator of the oil and gas industry 
and is recognized as a regulatory leader throughout the world. 
Commission rules and actions, grounded in science and fact and 
combined with almost a century of oil and gas regulatory 
experience, allow us to protect the public and our natural 
resources well.
    The difference in Texas is found in the Commission's 
mission statement: ``To serve Texas by our stewardship of 
natural resources and the environment, our concern for personal 
and community safety, and support of enhanced development and 
economic vitality for the benefit of all Texans.'' Sensible, 
business-minded regulation with a high standard for 
environmental safety allows the oil and gas industry to 
flourish.
    Every aspect of oil and gas development is highly 
regulated, as industry adheres to regulation at the local, 
state, and Federal levels. While it is in everyone's best 
interest the energy industry is successful, that is only the 
case if it operates responsibly and in full compliance with our 
laws, or the Commission will not hesitate to revoke their 
ability to do business in Texas.
    Included in the Railroad Commission's regulatory 
responsibility is the well completion technique known as 
hydraulic fracturing. For more than 60 years, hydraulic 
fracturing has been used safely and successfully in over 1 
million wells around the world, retrieving more than 7 billion 
barrels of oil and 7--600 trillion cubic feet of natural gas.
    The technique involves the process of extracting oil and 
gas reserves from shale rock layers deep within the Earth's 
crust that were once unreachable through the use of 
conventional drilling. This precise scientific process combined 
with horizontal drilling allows for the injection of highly 
pressurized hydraulic fracturing fluids into shale areas. This 
creates new channels within the rock from which oil and gas are 
extracted at higher rates.
    With ever-evolving industry technology and increased 
production comes a large regulatory workload. Although Texas 
regulatory standards have been in place for almost 100 years, 
the current energy growth has presented a real opportunity for 
states to benefit from the economic value of the responsible 
regulation of energy development.
    In an effort to bolster our regulations during this time of 
considerable growth, the Commission has worked with 
stakeholders to ensure that rules reflect industry's best 
practices. As groundwater protection remains a key objective to 
the Commission, major rules have focused on this principal 
charge.
    A keystone to the Commission's regulatory success is 16 
Administrative Code Section 3.13, or Statewide Rule 13. It lays 
the groundwork for the safety of Texas water. Statewide Rule 13 
evaluates well integrity, assesses casing, cementing, drilling, 
well control, and completion requirements, codifying best 
industry practices. Amended in 2013, the most stringent casing 
rule in the country went into effect on January 1st of 2014.
    In addition to Statewide Rule 13, before the Commission 
issues a drilling permit, the agency's Groundwater Advisory 
Unit will send an applicant a letter indicating the base of 
usable-quality water, indicating the level at which an operator 
must place a cement casing to protect water sources. Wellbore 
construction and design is highly regulated and technically 
robust. Groundwater is permanently protected by several layers 
of steel casing and cement, as well as thousands of feet of 
rock. As a result, well failure is extremely rare in Texas.
    While economic gains are meaningless without the safety of 
our communities and resources, hydraulic fracturing bans hurt 
Texas and the energy sector as a whole. Outside interests are 
taking the legitimate concerns of citizens and influencing them 
in an attempt to end fossil fuel production. Many of the 
concerns of environmental groups raised are factually incorrect 
or unsubstantiated. Without clearly defined regulatory roles 
for cities, oil and gas development and its ability to anchor 
the Texas economy is in jeopardy.
    In Texas, bans in industry are a present-day concern. The 
Railroad Commission though is required by delegated authority 
to continue issuing oil and gas permits. Over the years, 
though, oil and gas energy companies have extracted oil and gas 
deposits from deep underground. Their operations have often 
approached city boundaries. In those instances, success is 
found when the industry, the Commission, and local authorities 
work together to implement sensible guidelines. This 
collaboration will disappear in communities where hydraulic 
fracturing is banned. Without the certainty of fair regulation, 
businesses will be far less willing to risk their capital, and 
as a result, those cities will lose jobs, tax revenue, and 
business development.
    The industry is the greatest economic contributor in Texas, 
and a prime driver in the vitality of the U.S. economy. In a 
world where misinformation and sensationalism too often drive 
the public discourse, let's embrace the truth, adopt reasonable 
approaches to the challenges we face, and share the prosperity 
that follows.
    Thank you for having me this morning. I'll be glad to 
answer any questions.
    [The prepared statement of Ms. Craddick follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
     
    Chairman Smith. Thank you, Chairman Craddick. And Dr. 
Siegel.

                TESTIMONY OF DR. DONALD SIEGEL,

                    CHAIR OF EARTH SCIENCES,

                      SYRACUSE UNIVERSITY

    Dr. Siegel. Mr. Chairman, can you hear me?
    Thank you.
    Mr. Chairman, members of the committee, thank you very much 
for inviting me here.
    I present testimony on whether hydraulic fracturing of 
rocks for oil and gas production can, other than in the very 
rare local situation, degraded the quality of groundwater found 
in shallow aquifers. I offer this testimony entirely on my own 
behalf.
    Now, the controversy over fracking ranges from concerns 
over climate disruption to worries about potential lifestyle 
changes and economic inequities. The one issue commonly raised 
is whether natural gas escaping from gas wells can contaminate 
drinking water aquifers, a concern highlighted by two 
scientific papers published by scientists from Duke University 
in 2011 and 2012. In these papers, the researchers reported the 
results of their sampling of 141 domestic water wells in 
northeastern Pennsylvania and adjacent New York for methane and 
other substances. They showed a graph indicating that higher 
concentrations of dissolved the natural gas occurs in water 
wells closer to gas wells, and they said their results 
``suggest important environmental risks accompany shale gas 
exploration worldwide.''
    When I read these papers then, I felt that 141 samples were 
too few to make such a sweeping conclusion, and I noticed that 
a cluster of about a dozen water wells had been sampled near 
Dimock, Pennsylvania, where two gas wells had notably failed 
and had produced some natural gas contamination, if not 
anything else.
    Common sense tells me that more natural gas occurs in the 
drinking water near known failed wells, as rare as they might 
be, much as there has to be more smoke near known burning 
buildings. In essence, the Duke sampling seems statistically 
biased to me and I didn't think they could say much about the 
entire population of water wells, let alone anything about 
shale gas exploration worldwide from such a small data set and 
that style of sampling.
    Surely after these papers were published, Chesapeake Energy 
Corporation asked me if I would be interested in assisting them 
to do a basic science study on an enormous water quality data 
set they had collected in Pennsylvania and adjacent states. 
This data set had over 34,000 individual samples of groundwater 
and it's the largest data set I've ever seen of its kind for 
groundwater analysis, including when I worked on large regional 
aquifers for the U.S. Geological Survey.
    You know, people in science talk about what's a 
representative sample when you want to figure out 
contamination. The number of samples in Chesapeake's data 
remarkably captures the true population in parts of 
Pennsylvania, so I agreed to help them. And we published our 
first paper from this project on March 12 of this year in 
Environmental Science and Technology, a peer-reviewed journal. 
Before I talk about our results, I want to address some issues 
that the press has recently brought up.
    Immediately after we published our paper, certain media 
challenged whether my co-authors and I had properly divulged 
our association and payment by Chesapeake Energy Corporation. 
Please keep in mind during the peer-review process, neither our 
papers' reviewers, the associate editor handling the paper, nor 
the chief editor found fault with our disclosure, and they 
accepted our paper on March 12 of this year.
    Now, I've edited many journals myself and I understand 
disclosure, but in response to media pressures, the journal 
prudently, as I would have done, asked my colleagues and me to 
expand our disclosure. We did so promptly, and on April 16 our 
revised manuscript was re-accepted as complete by the journal. 
Case closed.
    Now, the media also challenged us on how Chesapeake's 
consultants sampled the homeowners' waters for natural gas. The 
consultants used a widely recommended method used by EPA and 
various state agencies and myself and others for decades. So 
there is really no issue on that.
    What about our results? Well, we cannot repeat Duke's 
results. We cannot repeat Duke's results, but instead of using 
141 samples, we used 11,309 samples in an area within which 
there were 661 gas wells. We found high and low concentrations 
of natural gas occur close and far from oil and gas wells with 
no discernible pattern. Dissolved methane does not inherently 
increase the closer a home is to a gas well. We could easily 
see this in a graph, but we used four robust statistical 
methods just to confirm it.
    Now, why couldn't we reproduce Duke's results? I think that 
Duke researchers just had insufficient number of samples to 
adequately reflect the actual situation, and that's what I 
reported in the paper.
    Now, please understand that I know that gas wells can still 
fail, but the Pennsylvania experience shows these situations 
happen rarely, much less than one percent of the time. And our 
data support these type of low incident rates. But most of all, 
I'd argue our study points to the necessity of not jumping to 
conclusions about contamination of water by anything without 
getting adequate numbers of samples or at least having a 
sampling program designed to truly characterize the problem.
    Thank you very much.
    [The prepared statement of Dr. Siegel follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
   
    Chairman Smith. Thank you, Dr. Siegel.
    And, Mr. Lomax.

                 TESTIMONY OF MR. SIMON LOMAX,

               WESTERN DIRECTOR, ENERGY IN DEPTH

    Mr. Lomax. Chairman Smith, Ranking Member Johnson, 
distinguished members of the committee, good morning, and thank 
you for inviting me to testify. My name is Simon Lomax and I am 
here today representing Energy In Depth, an education and 
outreach program of the Independent Petroleum Association of 
America.
    The IPAA represents thousands of oil and natural gas 
producers and service companies who develop 95 percent of the 
Nation's oil and gas wells. Today, Energy In Depth is releasing 
a white paper called ``A Look inside New York's Anti-Fracking 
Echo Chamber.'' It deals with the unprecedented decision of New 
York Governor Andrew Cuomo to effectively ban Marcellus shale 
development in the Empire State through a ban on so-called 
high-volume hydraulic fracturing, or fracking for short.
    I say unprecedented because, according to the Wall Street 
Journal, New York is the first state with significant shale gas 
resources to ban fracking. Governor Cuomo's decision was 
completely at odds with earlier findings from state and Federal 
environmental regulators that hydraulic fracturing has been 
used safely in the United States for decades. In fact, Governor 
Cuomo's decision overturned two earlier findings from state 
environmental regulators in New York itself in 2009 and 2011 
that hydraulic fracturing in the Marcellus shale could move 
forward safely under stringent regulations.
    The reaction to the New York ban has been telling. While 
some fringe environmental groups are celebrating, others in the 
environmental movement say this simply goes too far. For 
example, former New York City Mayor Michael Bloomberg, a major 
ally of environmental groups, called Governor Cuomo's decision 
a misguided policy that ``doesn't make any sense at all.'' 
President Obama's Interior Secretary Sally Jewell, who served 
on the board of a national environmental group before joining 
the President's Cabinet, reacted by saying fracking bans are 
``the wrong way to go.'' She added that supporters of such bans 
``don't understand the science.''
    Similarly, California Governor Jerry Brown, a celebrated 
environmentalist, flatly refused to ban hydraulic fracturing 
when the subject came up recently in an interview on Meet the 
Press. And in Colorado where I live, a special task force 
convened by Democratic Governor John Hickenlooper recently 
rejected a New York-style fracking ban.
    Against that backdrop, the question our white paper seeks 
to answer is how did Governor Cuomo justify a decision that 
falls so far outside the mainstream? To support the ban, the 
Cuomo Administration produced a 184-page literature review of 
recently published research papers. But as detailed in our 
white paper, we discovered significant and undisclosed ties 
between some of the research used to ban fracking in New York 
and the political campaign to ban fracking in New York. For 
example, one paper was written by fracking opponent who 
actually used buckets lined with plastic bags to take air 
samples near oil and gas wells.
    You might think this kind of paper would get shot down in 
the peer-review process, but the peer reviewers were also 
fracking opponents. One of them was Sandra Steingraber, the 
cofounder of New Yorkers against Fracking, the State's leading 
anti-fracking campaign group. When asked by a reporter about 
this, Steingraber insisted her peer review was ``absolutely 
objective.'' Then, a few days after that interview, she gave a 
speech at a post-ban celebration with anti-fracking activists 
in Albany where she said ``it is so sweet now to come together 
in one room to tell the story of our victory.''
    But there's more. We found a network of environmentally 
active foundations funding the groups that produced this 
research paper, some of the media outlets that covered the 
paper, and the campaign organizations that pressured the Cuomo 
Administration into banning fracking. These financial ties 
totaled $3.7 million at the research phase, $2.2 million at the 
media phase, and more than $16 million at the campaign phase.
    This wasn't an isolated case. We found at least five more 
research papers cited by the Cuomo Administration where anti-
fracking foundations provide funding to the researchers, 
funding to the media outlets that promoted the research, and 
funding to the campaigns that seized upon the research to drum 
up political opposition to shale development in New York.
    The anti-fracking work of these foundations was led by the 
Park Foundation based in Ithaca, New York, whose president has 
openly admitted to funding anti-fracking research, media, and 
political campaigning in an effort to oppose fracking ``from 
every angle.'' In effect, these foundations built an echo 
chamber to drown out the facts in the debate over hydraulic 
fracturing and Marcellus shale development in New York.
    Thank you again for the opportunity to testify and I look 
forward to your questions.
    [The prepared statement of Mr. Lomax follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Smith. Thank you, Mr. Lomax.
    And Mr. Holstein.

                TESTIMONY OF MR. ELGIE HOLSTEIN,

            SENIOR DIRECTOR FOR STRATEGIC PLANNING,

                   ENVIRONMENTAL DEFENSE FUND

    Mr. Holstein. Thank you, Mr. Chairman, and thank you, Ms. 
Johnson, members of the committee, for this opportunity to 
appear before you today to discuss the issues associated with 
unconventional oil and natural gas production.
    The essential question before the Committee is whether it 
is appropriate for state and local governments to exercise 
their long-standing traditional authorities--excuse me--in 
order to ensure that their citizens and communities are 
reasonably protected from economic and environmental harm. We 
believe the answer to that question is yes.
    While Environmental Defense Fund has not been engaged 
directly in the various debates over state and local hydraulic 
fracturing bans and other restrictions, we believe that many of 
the issues around which those debates revolve are legitimate 
and do reflect scientifically supportable concerns.
    Unconventional oil and natural gas development is a heavy 
industrial activity, so it is understandable that states and 
municipalities are seeking to exercise their traditional role 
in protecting their communities, and I think that response is 
entirely consistent with state and community application of 
things like zoning, right-to-know laws, industrial safety 
standards, et cetera.
    Achieving a true balance of interests is critical. That 
means ensuring that gas is developed responsibly through strong 
public health, safety, and environmental protections. Striking 
the right balance also means continuing to invest in the 
deployment of energy efficiency and renewable energy, even as 
our nation moves to dramatically expand our domestic oil and 
gas resources.
    I'd like to touch on several of the key issues presented by 
hydraulic fracturing. One is well integrity. It's true that 
there has yet to be conclusive evidence that hydraulic 
fracturing itself has caused drinking water contamination. 
However, it is widely understood that poor well construction 
and maintenance can create pathways for contamination of 
groundwater resources by introduced and naturally occurring 
chemicals.
    Water management: Between one and 5 million gallons of 
fracking fluids are typically used in a hydraulic fracturing 
operation, and around 800 billion gallons of wastewater are 
generated annually by onshore oil and gas operations in the 
United States. Where that water comes from and how it is 
managed during storage, transportation, treatment, and disposal 
are issues of legitimate state and local concern.
    Air quality: Because of intensive shale gas development, 
the small town of Pinedale, Wyoming, has experienced smog 
concentrations comparable to those of Los Angeles. Polluted air 
from oil and gas operations is a growing concern across the 
country. In addition, methane emissions from natural gas 
operations are a potent source of greenhouse gas pollution.
    Earthquakes: Reports of earthquakes occurring as a 
consequence of hydraulic fracturing are now widespread, 
including in Oklahoma, Arkansas, Texas, Ohio, and Kansas. 
Whether those earthquakes are the result of high pressure frack 
jobs or, much more commonly, high-volume wastewater disposal 
wells, earthquake activity and shale regions can be deeply 
alarming to members of the public.
    In fact, just this week, the Oklahoma Geological Survey 
released a statement concluding that it's very likely that most 
of the recent earthquakes in the central part of the State--and 
there have been hundreds of those earthquakes--were triggered 
by the injection of produced water into disposal wells.
    Infrastructure: The impact on roads, water systems, 
schools, social services, land, and neighborhoods of intensive 
oil and gas development is a leading concern of the many 
communities across America that find themselves, often for the 
first time, in the center of new energy development.
    In States like Texas and Oklahoma, hundreds of cities have 
adopted local rules that have enabled the orderly development 
of oil and gas. Unfortunately, such measures are under attack 
in many jurisdictions, including most recently in Texas where 
the legislature is considering a bill that would sweep away 
nearly all local authority. We think that would be an 
unfortunate overreaction. Dismantling local regulatory 
authority increase risks by creating regulatory gaps. It also 
stops communities from imposing even the most reasonable rules 
governing issues such as well setbacks from homes, schools, 
churches, and parks. The result can be even more determined 
citizen opposition to oil and gas operations.
    In many states, new regulatory measures have not kept pace 
with the intense rate of new oil and gas development, which of 
course is made possible by hydraulic fracturing and other new 
technologies. Local communities have become increasingly 
restive about shale and oil and gas development within their 
borders. And of course, as I note in my written testimony, many 
communities and states have very little and in some cases no 
experience with the oil and gas operations.
    So while drilling bans may not be the solution in the long 
run, they surely do reflect a need for governments at the 
federal, state, and local level to take more aggressive action 
to protect the environment and the economy.
    Thank you for the opportunity to share our thoughts about 
the basis for these public concerns.
    [The prepared statement of Mr. Holstein follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Smith. Thank you, Mr. Holstein, and I'll recognize 
myself for questions. And let me address my first one to 
Chairman Craddick.
    And it is this: Chairman Craddick, you mentioned in your 
statement that much of the criticism directed towards fracking 
is unfounded and inaccurate. And I pointed out in my opening 
statement that the Administration is now zero for three in 
their very public accusations that somehow fracking 
contaminates water. What is the harm caused by this kind of 
misinformation and what can we do about it?
    Ms. Craddick. Well, I think first and foremost--and I 
appreciate the question--there's a lot of harm caused by 
misinformation, and I think part of the job as a regulator is 
to make sure that people understand we're out there inspecting 
and doing our job and that we have rules, very vibrant rules in 
place.
    But when you look at--if you've got a fracking ban like 
we've had proposed in Texas and we always want to make sure we 
are respectful of the voters, but I think misinformation in the 
City of Denton is part of what has caused the fracking ban vote 
there. It's a taking-of-private-property rights, first and 
foremost. So that's a real challenge. I think all of us respect 
private property rights and citizens to be able to develop 
their own mineral interests, first and foremost. But it's also 
an economic problem for Texas.
    So just to give you a little perspective of where Texas is, 
last year--and these are numbers at the end of last year--we--
the oil and gas industry put into the Texas economy $15.7 
billion into the Texas economy. That's both property tax, all 
kinds of taxes, but also payments to those royalty and mineral 
interest owners. The industry created, both the direct and 
indirect, 2.2 million jobs in the State of Texas. And if we 
decide to ban fracking and/or limit what we're going to do, 
then I think that you'll see those jobs go away and not come 
back.
    Chairman Smith. Thank you for that response.
    And, Dr. Siegel, you mentioned the two studies, 2011 and 
2012, that were cited by New York to justify their banning of 
fracking. Your own study refuted their findings, and you 
mentioned several times the bias involved in those studies and 
in the coverage of those studies. What accounts for the bias? 
What drives the bias? What's the motive and what can be done 
about that?
    Dr. Siegel. That's a good question. I can't----
    Chairman Smith. Turn on your mike there. Okay.
    Dr. Siegel. That's an excellent question, Mr. Chairman. You 
know, I can't read into the minds of the researchers, you know, 
at Duke of why they designed the study the way they did. But as 
I said in my testimony, it struck me when I first saw the 
paper, the first one in 2011, that the sampling appeared to be 
done in a way to highlight places where a few fugitive gas well 
problems had occurred in Pennsylvania, and some have occurred, 
a few handful have occurred, and Dimock being one of them.
    And so it struck me if their goal was to come up with an 
assessment of in general systematically or systemically is 
there a problem with gas wells and gas and domestic water, they 
should have sampled differently.
    Why in New York it got such impact I think it had to do 
with the media coverage and actually Rob Jackson's promotion of 
his paper. And so people picked up on that.
    And how to prevent that, I really don't know. It's a big 
issue of how science is perceived in the public and how to 
present the best science there is in a way that the public can 
understand it.
    Chairman Smith. Thank you, Dr. Siegel.
    And, Mr. Lomax, you discovered, no surprise, this network 
of foundations and activists who seem to engage in what we 
might call and what you called advocacy science, which I don't 
think is science at all. You might take a swing at how do we 
counter this bias that you have discovered, why it is not 
scientific, and what we can do about it.
    Mr. Lomax. So I've mentioned in my testimony that I live in 
Colorado. I live in Denver, which is a major----
    Mr. Perlmutter. --Colorado.
    Mr. Lomax. It's good to see you Congressman Perlmutter.
    I have the great privilege of working alongside and 
interacting with on a daily basis the men and women of the oil 
and gas industry in Colorado who make the oil and gas industry 
run--geologists, engineers, other technical experts--because 
the oil and gas business is fundamentally a scientific 
enterprise. Without the science of geology, you don't know 
where to get the oil and gas. Without the science of 
engineering, you don't know how to build a well to bring that 
oil and gas to the surface so we can turn it into the energy 
and consumer goods that support our way of life.
    If there's one thing that I could convey from my 
discussions with them is they just want a debate that's based 
on facts.
    Chairman Smith. Yeah.
    Mr. Lomax. They just want a debate that's based on facts 
because, as practitioners of science themselves, they know that 
the facts conclude that the oil and gas industry, while not 
being perfect, is most certainly safe.
    And so I think that in terms of the undisclosed conflicts 
and bias that you see sometimes in research and in some media 
platforms that claim to be news outlets, that should be more 
clearly disclosed.
    I'm here at the committee today very clearly an advocate of 
the oil and gas industry. That's not something I shy away from. 
It's something I'm very proud of, and I chose to go to work in 
oil and gas after a long and happy career as a reporter, as a 
journalist. So people know where I'm coming from. People can 
judge for themselves if I'm somebody worth listening to or not. 
And one of the things that I think you may have noticed about 
my testimony is that I was pointing people to things--pointing 
people to authoritative sources from outside the industry, 
particularly environmental regulators, so that you don't have 
to take my word for it.
    Chairman Smith. Okay. Thank you, Mr. Lomax.
    The Ranking Member, Ms. Johnson, is recognized.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman.
    Let me thank all the witnesses for being here and simply 
say that I am really seeking information. And I'm reading an 
article here now that was published in the Wall Street Journal 
this week--as a matter of fact, yesterday--and it talked about 
the Oklahoma Geological Survey released a statement on Tuesday 
saying it is now considered very likely that most of the 
hundreds of earthquakes in the State's center in recent years 
were triggered by the injection of produced water in disposal 
wells. Southern Methodist University scientists, being a small 
university in Dallas, Texas, indicated that 2013 northwest of 
Fort Worth was also likely caused by the wastewater injection.
    Now, I don't see anything wrong with the findings. What 
concerns me is the denial of the findings. It would seem to me 
that if these findings continue even with the University of 
Texas research, are we addressing the findings? That is my 
major concern. Just last weekend there was a major incident 
just northwest I think of Fort Worth near Arlington where a 
family's house collapsed and the water was--everyone was told 
not to drink the water.
    I've never found anything wrong with research, but my 
feeling is that once we find findings, rather than denying it's 
happening, can we start to address the issue? And what do we 
get from denying citizens from being so fearful that they don't 
want to see that near their homes?
    I'd like to see--Mr. Lomax and Mr. Siegel, would you 
address that for me? What is the--I'm trying to get to why 
we're trying to deny this is going on. I just want the 
information so we cannot just focus on it's not happening but 
focusing on what can we do about it.
    Dr. Siegel. Well, I mean I'm not denying--I never would 
deny that the injection of water in injection wells at 
extremely high rates wouldn't potentially cause earthquakes. I 
mean, I've seen the studies the USGS has done and there are a 
number--not many, but a few high-capacity injection wells in 
which produced waters are being injected, and Ohio is another 
place, and so forth. You know, the remedy to that is to inject 
probably at much smaller rates. You have more wells injecting 
at lower volumes. So, you know, I certainly wouldn't deny those 
results. They come from very credible sources.
    In terms of allaying the public's fears, I'm not sure how 
to do that. But in the context of what you just said, I mean I 
think it's fairly well known now that if you inject too much 
fluid at a given location in certain geologic settings, you 
could induce some earthquakes.
    Now, having said that, from my reading of the journals of 
the literature being produced on the earthquakes in Oklahoma 
and elsewhere, most of them are the kind you can't feel but 
there are some that you can feel.
    Ms. Johnson of Texas. I have felt them.
    Dr. Siegel. Right.
    Ms. Johnson of Texas. I felt them the week before last in 
Dallas.
    Dr. Siegel. Right. So you can't deny that, right, and I 
won't--would never deny that. But the solution to that, 
although I'm not--this is not my area of great expertise, but 
my understanding is that you have more injection wells spread 
out over a larger area and you wouldn't have the kind of 
problem, at least that's what--the sense I get from my 
colleagues who study this kind of thing.
    Ms. Johnson of Texas. Mr. Lomax, do you have a comment?
    Mr. Lomax. Yes, ma'am. Thank you for your question.
    My issue is almost never with the actual research but the 
way that those findings get politicized and misrepresented and 
used by groups to say that hydraulic fracturing particularly--
even though we're talking about a completely separate process, 
wastewater injection--when they use that as somehow to build a 
case for banning fracking.
    On the issue of induced seismicity, I always go back to 
some testimony that was presented to the United States Senate a 
couple of years ago by one of the Nation's leading 
geophysicists, Stanford University Geophysicist Mark Zoback, 
who studies this issue very closely, is an advisor to the Obama 
Administration on this issue, and didn't say it's a nonissue, 
just wanted to put it in perspective. So, for instance, he said 
that there are more than 140,000 of these wastewater disposal 
wells that are used by the oil and gas industry but also other 
industries, too, and that those--the vast, vast majority of 
those have been operating safely for decades.
    So it's the context and it's the lack of a factual 
discussion of the research that I take issue with and that I 
hear about all the time from, you know, geologists and 
engineers inside the oil and gas industry who just want the 
debate focused on the facts rather than it being politicized 
and sensationalized in an effort to run a media campaign to ban 
fracking.
    Ms. Johnson of Texas. Thank you.
    Now, Ms. Craddick--you went over; I'm going over.
    Chairman Smith. But you went over more than I did.
    Ms. Johnson of Texas. One more question.
    Chairman Smith. The Ranking Member will--without objection 
will be recognized for another minute.
    Ms. Johnson of Texas. Thank you.
    We are aware that some of these incidents happen. My 
concern is when people get concerned, it's real to them. Is the 
answer to just keep them from expressing it by keeping them 
from having local ordinances or do we make some type of 
recommendation to move out of these urban areas where it's 
happening to perhaps some other area? No matter what, we can 
sit here and say, this frightens people.
    I was standing in my office, which is almost downtown 
Dallas, and the building shook a week ago. And I said I'm on 
the sixth floor. That could not be a car. And then the news 
came on and said it was an earthquake. We are not accustomed to 
earthquakes in that area, but now we are. I mean they're 
happening very frequently, Irving, Denton, Fort Worth, and all 
in the mid-cities area.
    Is it stupid to say people don't want that to happen near 
their homes? Because for me to say--you're not going to pass an 
ordinance in this State to stop this. Do we have a fund to pay 
these people when their homes get torn up and their health is 
affected?
    Ms. Craddick. Well, thank you for the question. I think at 
the Railroad Commission we obviously take seismicity very, very 
seriously. We last year in April hired a seismologist the first 
time ever in the history that we have ever done that because we 
are, like everybody else, looking for answers. I'm not sure 
it's always oil and gas-related when you look at Irving.
    However, we are--have been out inspecting on a regular 
basis. We have rules to be followed, and based on 
recommendations from our seismologist last August, we adjusted 
some rules for saltwater disposal wells and are following those 
rules because we think--we're trying to be respectful and 
responsive. However, we're still looking at the science and 
data like everybody else, and we think our rules and our 
information have to be based on good science and good 
information.
    And so--but we also at the same time as a Commission have 
been up and down town hall meetings in Irving and Azle, been 
responsive to Denton. And so we want to be involved with the 
communities so they understand what we do and that we have very 
stringent rules.
    When you mentioned Arlington, last week with a potential 
well that had some problems, we were on scene once we got the 
call within an hour and were on scene for 24 hours straight as 
an agency and are continuing to follow up with that well to 
make sure our rules are being followed. So we take being a 
regulator and an inspector--and if a rule is not followed, then 
we have a stringent enforcement process as well.
    So I think part of our challenge is to communicate those--
that information to local communities and local residences, and 
we are as we speak trying to up our communication efforts and 
we do work in--with cities and we want to continue to do that 
as well.
    Ms. Johnson of Texas. One more question and I'm done.
    When people's homes collapse and when they have that kind 
of incident, what responsibility do the companies that are 
doing the drilling have?
    Ms. Craddick. It obviously--if that--if it's proven that--
they have the right to file a lawsuit. We also--obviously if a 
well has a problem and a rule has been broken, then we also do 
enforcement penalties at our agency as well. So they have the 
ability to file a lawsuit if that's the appropriate remedy for 
them.
    Ms. Johnson of Texas. Thank you very much.
    Chairman Smith. Okay. Thank you, Ms. Johnson.
    The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman.
    Let me just state very emphatically that I don't know 
anyone on our side of the aisle that doesn't believe that that 
states and local communities have a right to make 
determinations as to what will be permitted to operate within 
their own borders. We in fact pride ourselves in believing in 
local controls, et cetera. Let me--however, with that said, I'd 
like to ask Mr. Holstein, you mentioned hundreds of 
earthquakes. You know, when people talk about earthquakes, we--
those of us in California, we know what earthquakes are, and 
it's a very frightening thing to hear about hundreds of 
earthquakes. Just--what was the dollar damage done by all these 
earthquakes in Oklahoma?
    Mr. Holstein. I don't know, sir.
    Mr. Rohrabacher. You don't know.
    Mr. Holstein. No.
    Mr. Rohrabacher. Okay. You mentioned hundreds of 
earthquakes; to us that's frightening. I think that that--my 
guess is--anyone else on the panel have any idea what the 
dollar damage was done or is this just, that's an earthquake? 
There's some movement there? Do we know what the dollar damage? 
I would ask the panel to get back to me with that information 
because my guess is is that it's not very much. My guess is is 
that it's like a big truck driving by and that shake is called 
an earthquake. Do you consider--Mr. Holstein, does your 
organization consider any seismic activity as an earthquake?
    Mr. Holstein. Congressman, let me emphasize that, as 
Chairman Craddick noted, many of the states that have in place 
experienced regulators are scurrying to answer some of the 
questions you're raising.
    Mr. Rohrabacher. Um-hum.
    Mr. Holstein. But their first order of business I think as 
regulators of the industry is to discover just scientifically 
what is the connection between the earthquakes and any 
possible----
    Mr. Rohrabacher. Well, how about answering----
    Mr. Holstein. --activity.
    Mr. Rohrabacher. --that question? Does your organization 
consider any seismic activity as an earthquake?
    Mr. Holstein. No.
    Mr. Rohrabacher. Okay. They don't. So what is your 
definition of an earthquake that gives us hundreds of 
earthquakes in Oklahoma?
    Mr. Holstein. Congressman, we--in my testimony the cite of 
a--the references I made to the earthquakes came from the 
report that the Oklahoma Geological Survey has issued in the 
last few days.
    Mr. Rohrabacher. And they----
    Mr. Holstein. So we didn't--let me just say we did not----
    Mr. Rohrabacher. Yeah.
    Mr. Holstein. --do any independent investigation.
    Mr. Rohrabacher. Okay.
    Mr. Holstein. Secondly, I want to endorse your suggestion 
that we gather information about the cost of whatever 
earthquakes may----
    Mr. Rohrabacher. Yes, certainly, because----
    Mr. Holstein. --have occurred because I think the insurance 
industry is probably a good source for that.
    Mr. Rohrabacher. Okay. Let me note that I am a former 
journalist as well. I remember a story that I covered years ago 
when there was a--we'd had an offshore oil well disaster or--it 
doesn't exist anymore. The water is back to its normal state in 
California after that. I think it was 1969 there was a big oil 
spill out there. And, anyway, the oil companies had decided 
they were going to pay for major research into the danger of 
offshore oil wells. And I was called in as a reporter to cover 
one of these hearings that they were having, and you had these 
guys with Ph.D.'s and they really--talk about professionals 
that were hired on to try to give the public some answers about 
the actual dangers of offshore oil drilling.
    Well, when I got to this hearing, there was a young lady 
outside with a rubber duck covered with oil screaming 
``murderers, murderers'' as they went by. And that young lady 
with the rubber duck got all the press coverage that day. She 
was actually put on par. And I asked her as we left, I said, 
well, are you a student here locally? Well, she said, no, I'm 
just hitchhiking through town. And I said, well, how did you 
get over here? She said, well, this guy who picked me up said 
that he would put me up if I would hold up this rubber duck and 
scream ``murderer'' at these people, and I don't like these oil 
companies anyway.
    You know, we've got to get serious about these issues, 
environmental issues, and there's a lot of people who are 
holding up a rubber duck with oil dripping from it screaming 
``murderer'' and then what we end up with is less safe energy. 
What we end up with and what we end up in California with was--
and other places where they banned now offshore oil drilling 
for so long, and we ended up with oil being delivered by 
tanker, which is probably 10 times more dangerous than anything 
coming from an offshore oil well. We have people who have 
opposed the pipeline that we--the Keystone pipeline for 
environmental reasons and that we end up with even more danger 
transporting that same oil and gas by trains.
    So, look, I think everybody--and nobody in their--who is in 
their right mind is going to make--want there to be more danger 
environmentally, things that can hurt--we all have children. We 
want our children to inherit a planet that's cleaner. But what 
we have is people who are acting irrationally and I believe 
it's all based on some messianic theory that we've got to 
eliminate oil and gas because we are changing the climate of 
the planet; thus anything we do is justified. And I think we 
need to be very careful with our facts, Mr. Chairman, and thank 
you for this hearing.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentlewoman from Oregon, Ms. Bonamici, is recognized 
for her questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to our witnesses for being here today for this important 
discussion.
    I wanted to take just a minute to recognize Camille, who is 
here with Girls Inc. as my daughter for the day. She's from 
Oregon and she's in the fourth grade and she has a class in 
science and a class in technology at her school. So when we 
talk about science literacy, I want to tell you there's hope 
for the next generation.
    So back home in Oregon, my constituents reside along or 
near an active fault, the Cascadia Subduction Zone, so for this 
reason Oregonians are very concerned about seismic issues, and 
as they should be. Currently, I know the Oregon Legislature is 
studying hydraulic fracturing. We have none in our State at 
present. And, as Mr. Holstein testified both in his oral 
testimony and his written testimony, he was talking about the 
Oklahoma geological survey. I would like to--if--has this 
already been entered, the Geological Survey? I would like to 
ask that this be made a part of the record today, Mr. Chairman.
    Chairman Smith. Without objection, so ordered.
    [The information appears in Appendix II]
    Ms. Bonamici. The statement dated April 21, 2015, where 
they're talking about how the seismicity rate has increased and 
that it is--and I'm just going to read this so I get it right--
``very likely that the majority of recent earthquakes, 
particularly those in central and north-central Oklahoma, are 
triggered by the injection of produced water in disposal 
wells.''
    So I know that the water being injected in Oklahoma's deep 
wells comes from two main sources, the wastewater that 
originated from the water that was used to frack the wells and 
produced water that comes up along with the oil and gas, so we 
do have that now in the record and I hope everyone will take a 
look at it.
    Mr. Holstein, you talked about hydraulic fracturing. You 
mentioned heavy industrial activity. And my colleagues are 
talking about the right of states to properly regulate that 
type of activity. And I know we have a colleague here from New 
York. There has been a lot of conversation about what they've 
done in New York, and I know Vermont has also imposed a ban on 
hydraulic fracturing.
    I want to ask you, Mr. Holstein, in addition to the seismic 
issues which were raised with regard to Oklahoma that my 
constituents are especially concerned about, what other 
environmental concerns are associated with the disposal of 
fracturing--excuse me, fracking wastewater and produced water?
    And I also wanted you to just address a little bit more the 
use of water. You say--you mentioned that in your testimony, 
and I know that Texas alone has used more than 44 billion 
gallons of water in fracking activities. I don't have the time 
frame on that but could you talk a little bit about just the 
amount of water? I know in parts of Oregon we're very concerned 
about drought, California, and we look across a lot of the 
country that's facing drought. Do you have a sense of the 
volume of water that's used?
    Mr. Holstein. Yes, certainly, Congresswoman. And I think 
you're right to put your finger on the issue that so many 
communities are worried about and states, particularly those 
states that are suffering through terrible droughts right now, 
which is that these unconventional oil and gas drilling 
operations frequently require very large amounts of water, 1 to 
5 million gallons per well, so that's dozens if not sometimes 
hundreds of trucks rumbling up and down local roads. Okay. 
That's one of the reasons why we argue that this is a heavy 
industrial activity.
    But the broader context in which you're putting the water 
issue is exactly right. It's the availability of water, it's 
the challenge of treating water, it's the challenge of 
injecting water, and the issues which you have just discussed 
with respect to earthquakes and of course protection of water 
supplies, and all of these issues kind of revolve around the 
fact that there are enormous quantities of water.
    How much? In my testimony I indicate that there's 
approximately 800 billion gallons of water that must be managed 
or disposed of in the course of a year's worth of 
unconventional oil and gas development.
    Ms. Bonamici. And I don't want to interrupt you, Mr. 
Holstein, but I would like you to address in the remaining time 
the studies looking at the release of methane during 
hydraulic----
    Mr. Holstein. Certainly.
    Ms. Bonamici. --fracturing, please, and why that's 
significant.
    Mr. Holstein. Yes. We have done a lot of work in that area 
jointly with industry, as well as academic partners and others 
in peer-reviewed studies that have--that are taking a look at 
the methane issue across the entire natural gas supply chain. 
And as you know, natural gas is 97 percent or so methane, so 
emissions from anywhere in the supply chain are harmful to the 
climate but they also,--bring--you know, come along with 
volatile organic compounds that are a hazard.
    To answer your question directly, the release of methane 
from unconventional oil and gas wells is a problem but it's a 
solvable problem provided that operators use techniques that 
are available to them and equipment that is available to them, 
because if you look at the whole supply chain of where natural 
gas or methane leaks from, what you find is that as much as 40 
percent of those methane emissions will come from the 
production segment. We're working, as I said, with these 
partners to get a better handle on exactly that figure.
    But I think the important point that has come up through 
these scientifically peer-reviewed studies is that the design 
of the wells and the techniques used by the operators can make 
a huge difference in the amount of methane that escapes, and so 
this is a concern for local communities, as I said, because of 
local air pollution, and for the Nation as a whole because of 
its contribution to greenhouse gas emissions.
    I'd finally say that methane is a nasty climate actor. It's 
84 times as powerful as carbon dioxide in the first 20 years or 
so after it's released. And the significance of that point--and 
I believe attached to my testimony and in the record you'll 
find a scientific article about this problem. But the 
significance of that is that it creates a near-term problem 
with respect to greenhouse gas emissions, in other words, 
damage to the climate, and that together with CO<INF>2</INF> 
it's kind of a one-two punch at the climate.
    Ms. Bonamici. Thank you very much. I see my time is 
expired. I yield back. Thank you.
    Chairman Smith. Thank you, Ms. Bonamici.
    The gentleman from Florida, Mr. Posey, is recognized.
    Mr. Posey. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I have a lot of concern about fracking 
and seismic testing, and we get so much diverse information 
disseminated. You know, today we have three people saying 
positive things and one person saying negative things, and it's 
hard to tell, you know, who all is telling the truth and who 
might not be telling the whole truth and nothing but the truth.
    And, Mr. Holstein, in your written testimony you made 
things a little bit different than your oral testimony, and I 
think I heard you say in your oral testimony that, true, there 
is no evidence fracking causes contamination or maybe 
fracking--would you repeat that for me, please?
    Mr. Holstein. Yes, sir. And it's--hopefully I said the same 
thing in my oral summary as I did in the written, but if I 
didn't, I welcome the opportunity to repeat it here. ``There is 
yet to be conclusive evidence that hydraulic fracturing itself 
has caused drinking water contamination. However, it is widely 
understood that poor well construction and maintenance can 
create pathways for contamination''----
    Mr. Posey. Okay. That----
    Mr. Holstein. --``of groundwater.''
    Mr. Posey. That's what I wanted to hear. Thank you.
    You know, I heard people say the same thing about the 
Alamo. You know, it's true that the Alamo does not itself cause 
any contamination, but all those people that go to visit it, 
they probably travel there by car or something and they 
probably caused some kind of pollution. Somebody else said the 
same thing about the Super Bowl. The Super Bowl itself doesn't 
cause any pollution, but people that go to see the Super Bowl 
turn on television to watch the Super Bowl, that consumes 
energy.
    People said the same thing about the Statue of Liberty. The 
Statue of Liberty itself doesn't cause pollution, the people 
that take a boat to it, the boat causes pollution taking them 
there and the energy for the boat has to be produced. Somebody 
said the same thing about the White House. The White House 
itself does not cause any environmental damage but people who 
go to see the White House have to travel there and we know that 
virtually just about every product that we enjoy consumes some 
type of energy in the making of it.
    How do those examples differ from the point you're making?
    Mr. Holstein. Congressman, I think it's important for me to 
point out that Environmental Defense Fund has not been 
reflexively opposed to unconventional oil and gas development 
or the widespread development of these new resources that 
previously were economically unavailable to America.
    So I'd begin with that point and simply summarize the 
thrust of my testimony by saying that it is too narrow of focus 
simply to look at one dimension of hydraulic fracturing. That's 
why my testimony addresses the many issues that come along with 
unconventional drilling, but at the same time, it points out in 
considerable detail the actions that have been taken in states 
like Texas, in states like Colorado, in states like 
Pennsylvania and Wyoming to try to address these concerns.
    And one of the things I believe Chairman Craddick has said 
that we so strongly support--in fact, I was thinking about it 
as Congressman Rohrabacher was speaking with respect to 
offshore drilling--and that is that one of the essential 
challenges for regulators is to simply keep up with the 
enormous amount of innovation that's going on in the oil and 
gas industry. And I make no complaint about that innovation. I 
simply noted that it is a highly complex and heavy industrial 
activity and regulators need to be on their toes.
    So let me conclude my response to you by saying that if you 
can imagine the many communities and states where suddenly oil 
and gas development is occurring where no one alive has ever 
seen it before, has ever experienced it before, has ever worked 
in the industry before, you can imagine the challenges to 
elected officials at the state and local levels in trying to 
devise appropriate regulatory programs and oversight.
    And that is why we have such differences from state to 
state with states like Texas having 100 years or more of 
aggressive and increasingly complex regulation of the industry 
but other states that are just starting out. And similarly, we 
have a tremendous difference in the reactions that you see 
between--the reactions you see politically to some of the local 
fights over banning. Very briefly----
    Mr. Posey. Yeah, I see my time is going to be up. I want to 
thank you. I want to thank all the witnesses for appearing 
today.
    My particular interest is in offshore drilling that you 
mentioned, and it's through hearings like this that the 
Chairman was kind enough to have that we share those ideas and 
we learn from different states and learn different techniques 
and do more fact-finding on these issues that maybe aren't 100 
percent clear.
    Mr. Chairman, I thank you very much for the time and I 
yield back.
    Chairman Smith. Thank you, Mr. Posey.
    The only member of the Science Committee from Colorado, Mr. 
Perlmutter, is recognized for his questions.
    Mr. Perlmutter. Thank you, Mr. Chairman. And I want to 
thank my friend from Florida because what he's brought up, you 
know, he's given examples, the White House, the Super Bowl, and 
the whatevers. I think he and I both serve on the banking 
committee, the Financial Services Committee, and so one of the 
places where we may see an intersection at some point is with 
insurance, you know, property and casualty insurance if in fact 
there are dangers that some people have suggested. So we will 
see this come up in our other committee I'd say to my friend 
from Florida.
    Now, Colorado, obviously we've had a lot of discussion 
about fracking and about its place in the politic--in the body 
politic and legal community and the regulatory area. And so 
I've been dealing with this subject for ten years now I would 
say as a policymaker. And for me the fact that we have moved 
ourselves towards energy independence as a policy and as a 
successful goal from the innovation of horizontal drilling and 
hydraulic fracking is good, but--and I think Ms. Craddick, you 
said it well--we have to take reasonable precautions, though, 
with something that has helped us achieve another goal, and 
we've got to--as policymakers, we have to balance the dangers 
that potentially come from an industrial operation, as Mr. 
Holstein described it.
    And the fact that some things are going on underground we 
may or may not be able to see, some things are happening at the 
surface where there's a collision of an industrial operation 
and the school next door and whether you need a curb cut for 
the trucks and what's going on in the air. Is there an escape 
of methane or some other emission into the air? And Mr. Lomax 
knows we've been having that discussion in Colorado on a 
pretty, you know, heated basis, whether it should be local 
government, the state governments, or the Federal Government in 
charge of all of this.
    Colorado is similar to Texas. It's the state government 
basically has the final say, our Colorado Oil and Gas 
Commission, and that's generally where I've been. But we cannot 
ignore the potential for dangers. We as policymakers have to 
recognize dangers, and I'm looking at Oklahoma. There was an 
article yesterday where the Oklahoma Geological Survey said 
we're worried about seismic problems. So, you know, they said--
and they attribute it to the deep wastewater injection wells, 
and in Colorado we've had, you know, some seismic activity that 
ordinarily is not something we have in Colorado. You know, we 
want that to be only in Oregon and people come to Colorado 
because they're worried about Oregon, you know?
    Ms. Bonamici. Thanks.
    Mr. Perlmutter. Sorry.
    So I would say--I'd like to ask a question of Mr. Holstein. 
Good to see you.
    So take a look in what you do at EDF, what you did formerly 
within the Administration. Am I incorrect in trying to divide 
it up into three sections, what goes on underground, what goes 
on on the surface, and what goes on in the air?
    Mr. Holstein. Fair enough.
    Mr. Perlmutter. So what I've come to the conclusion is the 
surface part really is a local matter. It's zoning and curb 
cuts and truck traffic. Does that make sense to you?
    Mr. Holstein. I think my testimony strongly suggests a 
similar line of thinking. I hadn't divided it up quite the same 
way that it makes sense, yes.
    Mr. Perlmutter. I'd ask Mr. Siegel, and my--would you--I 
mean how do you look at how we divide sort of the regulatory 
components of all of this?
    Dr. Siegel. Well, it's hard for me to really reply to that 
because I'm not a regulator, okay, and I've really pretty much 
restricted my views to what I know and feel pretty comfortable 
with, which is water.
    Mr. Perlmutter. So you're a scientist and you're dealing 
with water and what's going on underground, right?
    Dr. Siegel. That's correct, and on the surface at times, 
yes.
    Mr. Perlmutter. And on the surface, okay.
    Dr. Siegel. Yes.
    Mr. Perlmutter. So from your experience and from your 
study, though, the pollution or the contamination you've seen 
really has been with poor casing, some poor practices with 
respect to the well?
    Dr. Siegel. Well, not quite. I mean in my experience, which 
is largely restricted to the Appalachia Basin of course since 
I'm from New York, the kinds of problems that the Pennsylvania 
experience tells us happens are there occasional surface spills 
certainly in the past before the industry took notice, and now 
that amount of spillage has really decreased.
    And as far as the casings, you know, a few instances, a few 
handful of instances----
    Mr. Perlmutter. Well, isn't that--would that be the problem 
in Dimock?
    Dr. Siegel. Dimock was a casing issue or--well, there's 
some question about that, whether when they drilled they went--
there's some issues of drilling. But it could also have been 
casing as well. And that was natural gas from somewhere below 
coming into people's homes.
    As far as the other fluids associated with the industry, 
it's mostly surface issues that are the problem, and those are 
readily taken care of in most cases. I mean we don't have open 
pits, for example, in Appalachia anymore. And in terms of the 
flow backwater, the produced water, in Appalachia Basin, it's 
my understanding that most of the flow back is reused to drill 
new wells. And so the quantity of flow back and produced water 
has gotten really small. They actually have to take care of--
ship it to Ohio or something for deep well injection, but 
because the industry has to develop ways to do this.
    In Pennsylvania there was a remarkable situation where one 
of the companies--and I forget which one--suggested--they 
developed a way to use acid mine drainage coming out of coal 
mines as a fraction water additive instead of using freshwater, 
but there was a state regulation for some reason saying you 
can't get economic advantage out of using a waste product or 
something so they never actually did it. But the point is that 
the chemical engineers are at work to try to solve the issue so 
that maybe in the future we don't have to use freshwater but 
bad water to do the actual fracking.
    Mr. Perlmutter. Thank you.
    And, Mr. Lomax, my time is expired. I did want to ask the 
Coloradan a question but my time has expired.
    Chairman Smith. Without objection, the gentleman is 
recognized for an additional minute.
    Mr. Perlmutter. Oh, all right.
    So, you know what, I'm going to--I'm done. I'll let--I'll 
talk to Mr. Lomax offline.
    Chairman Smith. Okay.
    Mr. Lomax. Congressman, I would like to, if I could, add a 
little context to the local and state issues about regulation--
--
    Mr. Perlmutter. Sure.
    Mr. Lomax. --in Colorado. I think what you've seen in 
Colorado is that on the whole, you know, in the majority of 
cases, you see the oil and gas industry working constructively 
with both state and local governments in order to--and even 
supporting local regulations in order to make sure that the 
development is done responsibly and is done with the support of 
the community. There have been, as you know, some cases where 
there have been local bans enacted and there has been very sort 
of broad regulatory and bipartisan opposition to local bans. 
But in terms of local regulation, there is a lot of really sort 
of constructive work going on between the state, between the 
industry, and between local governments.
    Now, that kind of stuff doesn't generate a lot of headlines 
because there isn't a lot of conflict associated with it. But 
during this whole oil and gas task force that the Governor set 
up last year, you had the Colorado Municipal League and you had 
the Colorado Association of Counties say we can work through 
these issues using the existing regulatory framework rather 
than turning--rather than coming up with statewide policies 
that are basically being proposed by national ban fracking 
groups.
    Chairman Smith. Thank you----
    Mr. Perlmutter. Mr. Holstein has been a--he wanted to say 
something so----
    Mr. Holstein. Thank you because I just am going to 
crystallize an important point that Mr. Lomax is making here. 
We believe that the set of rules that the State of Colorado has 
put into effect in the last year are among the most progressive 
and comprehensive in the Nation in terms of the range of issues 
they develop. And we were delighted to partner with the three 
largest oil and gas developers in the State and coming together 
to develop the consensus that led to that comprehensive new set 
of rules.
    But the driver for that conversation, what brought everyone 
to the table, was the fact that Colorado communities one by one 
were adopting or considering bans, putting them on the ballot, 
and there were indeed headlines across the state about whether 
or not oil and gas development, particularly involving 
unconventional development, including hydraulic fracturing, 
would be permitted in the state.
    So I simply point out that this is the danger of ignoring 
the local concerns that can sometimes lead to these bans. You 
need to bring people together and you need to take aggressive 
action to address the issues.
    Mr. Perlmutter. Thank you. And I'm going to be drummed 
out--off of this committee if I take any more time.
    Chairman Smith. Thank you, Mr. Perlmutter.
    The gentleman from Ohio, is recognized, Mr. Johnson.
    Mr. Johnson of Ohio. Thank you, Mr. Chairman.
    I live in a very rich--shale-rich region of eastern and 
southeastern Ohio, and hydraulic fracturing has been a process 
that has had profound economic--positive economic implications 
to the people that live in Appalachia, Ohio. So I'm very 
concerned about some of the issues that we're talking about 
here today.
    And, Chairman Craddick, there's been a lot of discussion 
about earthquakes here this morning. Is there some confusion 
that the earthquakes are being caused by hydraulic fracturing 
when it's really the deep well injection of the waste? Would 
you take a minute and comment on that?
    Ms. Craddick. First and foremost, thank you for the 
question and I will say your governor and some of your 
legislators and regulators have been to the Railroad Commission 
so we can explain what we're doing. So hopefully we continue to 
give you good advice as you are putting a vibrant oil and gas 
community together up there as well.
    You know, we obviously all take seismicity very seriously, 
and the information available today is that hydraulic 
fracturing is not causing earthquakes. That's the information 
available in Texas today. We are still researching and looking 
at the available science and we just had an SMU study, out on 
Monday night, Tuesday this week that our seismologist is going 
through and working with them. We hope they present this study 
to us in the near future so we can ask our appropriate 
questions as both regulators--I know the legislature is in 
session right now in Texas. They want to ask questions as well. 
So we're still looking at deep water injection wells and 
whether that is the potential challenge in Texas.
    So the answer is I don't think anybody absolutely knows. 
What I do think some of these studies potentially do is rule 
out potential problems that could be caused by earthquakes.
    Mr. Johnson of Ohio. But let me clarify just for the 
record, you're saying there's no evidence yet at this point 
that would indicate that hydraulic fracturing is causing 
earthquakes?
    Ms. Craddick. That's the information we have available, 
yes, sir.
    Mr. Johnson of Ohio. All right. Thank you.
    Ms. Craddick. And what I think some of these studies do do 
is rule out issues but I'm not sure they can ever tell you 
specifically what is specifically causing it, too.
    Mr. Johnson of Ohio. Got it. Okay. Thank you.
    Dr. Siegel, many advocacy groups have claimed that the 
methane found in drinking water of various homes was caused by 
hydraulic fracturing. Now, if methane is naturally occurring, 
how can you tell if it's naturally occurring or as a result of 
oil and gas development?
    Dr. Siegel. Well, I've always thought it was fairly simple. 
If you have fugitive gas from a gas well, my understanding, if 
it gets out and gets into a domestic water supply, what you'll 
find is methane Alka-Seltzer being produced where it was not 
there before.
    Now, there are some places in Pennsylvania and in New York 
where we have naturally methane Alka-Seltzer occasionally 
coming out of some drinking water wells where there's no 
drilling at all, and this is a unique geologic situation. But 
it's--you don't--the State of Pennsylvania doesn't to my 
knowledge identify fugitive gas by analyzing and seeing that 
dissolved concentrations that you can't see get higher. I mean 
basically homeowners say my well is bubbling gas and hasn't 
bubbled before and there's a gas well nearby. So there are very 
few cases I know there have been fugitive gas, and most of 
which have been easily taking care of by re-cementing.
    It's very apparent, all right, and so that's what concerned 
me about the other--those previous studies, that they--looking 
at dissolved methane, the stuff you can't see, and saying that 
increases in these which vary enormously over time naturally 
are somehow related to oil and gas, and that's what we found 
was the case.
    Mr. Johnson of Ohio. Sure. One follow-on question, you 
know, although it makes for good cinema and anti-fracking 
advocacy, is natural gas in drinking water a new phenomenon?
    Dr. Siegel. Well, not to my knowledge. The very first time 
I came to Syracuse in 1981, the first call I got was from a 
citizen who heard there was a hydrologist there and it had to 
do with natural gas in their water well. It was near Saratoga, 
New York, where I grew up, and, you know, I asked a few 
questions, and that particular natural gas came from a wetland 
setting.
    The U.S. Geological Survey in New York has--did a study on 
natural gas and found every well had some natural gas. At 
Syracuse, some funded by National Science Foundation to look at 
natural gas in Southern Tier, New York, and pretty much every 
place we've looked for it or looked there's been natural gas, 
and certainly in Pennsylvania the same way.
    Mr. Johnson of Ohio. Okay. Well, thank you, Dr. Siegel.
    Mr. Chairman, I'm going to be respectful of my colleagues' 
time and our witnesses' time and yield back within my 
prescribed time.
    Chairman Smith. Thank you, Mr. Johnson.
    And the gentleman from Virginia, Mr. Beyer, is recognized 
for his questions.
    Mr. Beyer. Thank you, Mr. Chairman. And I'd like to thank 
all the witnesses, too, for being here with us today.
    Dr. Siegel, you expressed some concern about the Duke 
professor studies and the bias in their sample collection, the 
146, two of them--or some of them near two of the wells that 
had failed.
    Dr. Siegel. Um-hum.
    Mr. Beyer. And yet when you gathered your 12,000 or 
whatever you were working on, they were gathered by employees 
of the Chesapeake, a natural gas explorer. Why is that inherent 
bias not much greater than independent researchers working for 
a university?
    Dr. Siegel. Well, I think you mischaracterized what 
happened with the Chesapeake. Chesapeake Gas, to my knowledge--
what I was told it--is they hired national consultants who 
sampled for them and nationally recognized certified labs by 
EPA and so forth to do the analyses. So Chesapeake didn't 
sample themselves. They hired independent contractors who are 
hired all over the country in environmental work to do the 
sampling. And so I don't see that those samples could have been 
compromised or would have been compromised by the fact that the 
Chesapeake hired independent consultants to do the sampling, 
much like, you know, I hired a laboratory to do analyses for 
me.
    Mr. Beyer. Doctor, you also expressed, you know, some 
concern about I guess maybe blogs or others that were critical 
of the failure to disclose your connection to Chesapeake in the 
original peer review. I know you corrected it last week, but 
the original said the authors declared no competing financial 
interest even though the samples were paid for to be collected 
by Chesapeake, you were funded by Chesapeake, and one of the 
co-authors was an employee of Chesapeake. Can you explain this 
oversight? Now corrected.
    Dr. Siegel. Well, you know, I don't think it was an 
oversight in the sense that the editors and everyone else in 
the journal fully understood by the bylines under our names 
that it would be obvious that we were being paid by Chesapeake. 
Chesapeake or any of these large corporations is not going to 
just hand over 34,000 analyses and say just do with them what 
you want. It was a collaborative agreement.
    And so my colleagues across the country, when they started 
seeing these blogs about me, you know, they said, well, of 
course you must have been paid by Chesapeake.
    But I guess it's an oversight in the context that people 
brought it up and so we took care of it. And as editor, you 
know, I--as I said, I've edited, I don't know, five, six 
journals in my career and I've seen lots of cases like this. 
So, yeah, I mean it's a corporate connection.
    Mr. Beyer. Okay. All right. Thanks very much.
    Dr. Siegel. Yeah.
    Mr. Beyer. Mr. Lomax, you again expressed great concern 
about so-called advocacy science. And, you know, so much of 
this is one side not trusting the science of the other. Why is 
it advocacy science when citizens worry about what's happening 
in their community to their health possibly but it's not 
advocacy science when the oil and gas industry hires scientists 
and journalists and others to represent their perspective?
    Mr. Lomax. I'm sorry, so the question is----
    Mr. Beyer. What makes Mr. Holstein's science advocacy 
science and yours not?
    Mr. Lomax. Well, let me start by saying that, you know, 
my--the white paper that we released today on the New York 
fracking ban is primarily about a failure to disclose all the 
interests that are being brought to the table and the funding 
thereof. And so, you know, I think that as a representative of 
the oil and gas industry and as an advocate for the oil and gas 
industry, you know where I'm coming from. And what we found 
when we looked at some of these research papers, particularly 
the research paper that was both written and peer-reviewed by 
opponents of the industry, that opposition to the industry 
wasn't disclosed so that people weren't able to judge for 
themselves whether that information was trustworthy or not.
    So it was an issue of disclosure rather than--it's not a 
question of whether or not people can advocate for a political 
viewpoint that they believe in. Of course they can. But if 
they're going to try to represent themselves as then, you know, 
independent researchers when they're actually running campaigns 
to try to ban hydraulic fracturing in New York, that's 
something at the very least needs to be disclosed. And you 
don't have to take my word for it. There are plenty of 
scientific codes of conduct that say these sorts of conflicts 
at the very least need to be disclosed.
    Mr. Beyer. Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from Alabama, Mr. Palmer, is recognized.
    Mr. Palmer. Thank you, Mr. Chairman.
    Chairman Craddick, how does geology impact the process of 
fracking, the composition of the formations that you're 
fracking?
    Ms. Craddick. Obviously that's one of the things we, one, 
rely on operators to look at; but if there is a fault and that 
fault is a known fault, then we make sure that that--that we're 
not allowing drilling to occur in that fault, first and 
foremost. We take that into account, as do companies. That's 
part of their risk assessment as well.
    Mr. Palmer. All right. In that regard isn't it true that 
the geology of Texas, the history of it is is that there has 
been more than 100 earthquakes large enough to be felt over the 
recent past? How many of those--the ones in the 1800s, the 
early 1900s. I've got a whole list of Texas earthquakes that 
occurred before fracking. Why do you think that happened?
    Ms. Craddick. You've done your research obviously. You 
know, we had a question earlier about Irving. When you look at 
the history of Irving, it actually is an earthquake capital of 
Texas that really--we don't have really any oil and gas going 
on in it. So I think it's a fair suggestion to think there are 
other things besides just oil and gas causing earthquakes at 
this point.
    Mr. Palmer. How about Oklahoma? There's been a long history 
of earthquakes in Oklahoma I know. It may not be a fair 
question for you since you're not from Oklahoma, but isn't that 
true as well, that there have been a number over the last 100 
years of earthquakes in Oklahoma that probably were not 
attributable to any human activity?
    Ms. Craddick. I believe--even though I'm not from Oklahoma, 
we obviously share a border and we pay attention and work with 
their commission as well, and so that would be a fair 
statement, yes, sir.
    Mr. Palmer. It's also true of Colorado and it's a little 
more difficult because they've only, in terms of history, 
recently been tracking Colorado earthquakes. I think maybe the 
earliest was 1870, but they had a series of earthquakes that 
occurred in Colorado that cost of damage in the early 1900s in 
Denver. And obviously there's more damages, there's more 
building and more settlement and more people moving in. You 
start to notice these things as there's more people.
    I'd also like to say something from a report from the 
University of Texas Institute of Geophysics, the Jackson School 
of Geosciences. It talks about along the Gulf Coast and 
Northeast Texas these--the earthquakes with magnitudes between 
M4 and M4.8. It says, ``fortunately, the vast majority of 
petroleum fields and injection wells do not cause earthquakes 
and the majority of human-cause earthquakes are small and 
harmless.'' Would you agree with that?
    Ms. Craddick. That's what we've seen thus far, yes, sir.
    Mr. Palmer. Thank you. Also in regard to methane emissions 
since we're on the topic, the University of Texas, there was a 
research report done through the University of Texas that was 
done in close coordination with the Environmental Defense Fund. 
I think our--one of our witnesses works for them. And they 
basically found that EPA's estimates for methane emissions are 
far lower than what anti-fracking groups frequently claim. As a 
matter of fact, I think as the newer technology has been 
employed, that they're capturing most of these emissions now. 
What do you--could you validate that?
    Ms. Craddick. Well, we don't do air emissions. We do work 
with our sister agency, the TCEQ in Texas, and they are telling 
us and believe that our emissions from methane have dropped 
about 70 percent in Texas since 2001.
    Mr. Palmer. So could we possibly conclude from that that as 
the technology has improved that methane capture has improved 
along with it?
    Ms. Craddick. I believe that would be a fair conclusion, 
yes, sir.
    Mr. Palmer. Thank you. One last thing is it was mentioned 
that this--that states ought to be able to regulate--well, 
actually it was Justice Brandeis was quoted but I believe it 
was Justice Brandeis that referred to the states as 
laboratories of democracy. I agree with that statement and I 
think that the states have--particularly since they have more 
knowledge of their geological issues than the Federal 
Government does in many respects, that these things should be 
dealt with at the state level.
    Mr. Chairman, thank you. I yield the balance of my time.
    Chairman Smith. And thank you, Mr. Palmer.
    The gentleman from New York, Mr. Tonko, is recognized.
    Mr. Tonko. Thank you, Mr. Chair.
    And I want to echo sentiments shared earlier by our Ranking 
Member.
    It's very odd to have a hearing in which we seem to be 
belittling local communities for their decision-making about 
their own quality of life. I think that kind of freedom is the 
essence of our democracy. To claim that communities are making 
these decisions simply because of bad information is rather 
interesting but irrelevant. I can point out that bad 
information on climate change or on the costs of the Affordable 
Care Act, which some refer to as ObamaCare, seem to be driving 
all kinds of voter choices around our country, but I don't 
think my friends on the other side of the aisle are going to 
work very hard to set those records straight.
    So to my questions, first to Mr. Lomax, in your testimony 
you state that research by Energy In Depth found that many of 
the research papers cited by the State of New York's health 
review of the process of hydraulic fracturing were financed by 
groups that oppose fracking. Is that correct?
    Mr. Lomax. Yes, sir.
    Mr. Tonko. And you also cite a specific study where the 
authors fail to mention that they have direct ties to 
opposition groups. Is that correct?
    Mr. Lomax. Yes, sir.
    Mr. Tonko. So it seems to me that the point you're trying 
to make is that we should not trust the results of these 
studies because the work is financed by groups opposed to 
fracking. That is a bit ironic given the fact that the Energy 
In Depth effort was founded by the Independent Petroleum 
Association of America, along with financial support from the 
American Petroleum Institute, the API, Chevron, Shell, BP, and 
other oil and gas companies. So by your logic we should not 
trust Energy In Depth either.
    When Energy In Depth was launched by IPAA in June of 2009, 
they sent out a letter announcing its launch. The letter said, 
``EnergyInDepth.org, a state-of-the-art online resource center 
to combat new environmental regulations, especially with regard 
to hydraulic fracturing.''
    In a paper by one of your colleagues, Chris Tucker, 
published last year, he described how Energy In Depth helps to 
combat opponents of hydraulic fracturing. And he wrote, ``The 
EID teams also help generate and guide stories behind the 
scenes. This year alone the number of new stories influenced 
was in the hundreds.'' And he goes on to say that ``EID 
regularly engages on social networks such as Twitter, Facebook, 
and YouTube always with the goal of driving the debate.'' Mr. 
Lomax, appearing before a congressional committee isn't a very 
behind-the-scenes way to drive the debate, but I appreciate 
this opportunity to ask how you generate and guide stories 
behind the scenes. With a number of news stories influenced by 
EID in the hundreds, could you tell us how you carry out that 
influence?
    Mr. Lomax. Let me deal first with your question about the 
failure to disclose ties to the campaigns trying to ban 
fracking in New York by researchers who were producing papers 
cited by the State of New York in order to ban fracking. My 
criticism of that practice was the failure to disclose those 
ties so that this research was--and these researchers in effect 
misrepresented themselves as unbiased observers as opposed to 
advocates. I am----
    Mr. Tonko. But to--you know, I only have so much time with 
my questioning----
    Mr. Lomax. Right.
    Mr. Tonko. --here. Just to the question, how do you carry 
out your influence? I'd rather hear about that right now.
    Mr. Lomax. Well, I'm not sure about carrying out my 
influence. I can tell you that I am, as I said before and I've 
been very clear about, I am an oil and gas industry advocate. 
I'm----
    Mr. Tonko. Right, but you're involved in several behind-
the-scenes scenarios, so how do you carry out your influence? 
What publications tend to be the most receptive to story ideas 
pitched by your organization?
    Mr. Lomax. I see my role both here before the Committee and 
answering questions from anyone who has questions about the way 
oil and gas is produced is to direct them to authoritative 
sources like state regulatory agencies, like Federal regulatory 
agencies, and members of academia who can help answer their 
questions. That basically is the role that I serve and it is 
very much--and I draw upon the skills that I have as a reporter 
trying to find answers for myself.
    Mr. Tonko. Let me also ask, though. Does the press even 
know to contact you? How does it--I mean EID isn't exactly a 
household name. How does it--is this like orchestrated behind 
the scenes with an effort to obviously provide a bias? I mean 
researchers who observed real occurrences are not biased to 
reality perhaps? What contacts do the press have? How do they 
know to reach the EID?
    Mr. Lomax. Well, they first of all could go to our website, 
EnergyInDepth.org. My email address at Energy In Depth is 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ca99a3a7a5a48a8fa4afb8adb383a48eafbabea2e4a5b8ade4">[email&#160;protected]</a> I don't think that there is much about 
Energy In Depth that is hidden or behind the scenes, as you 
suggest.
    Mr. Tonko. Well, I was only quoting from the individual 
who's in charge of carrying forth the mission.
    Mr. Lomax. Okay. My--I see my role, and it's one that I am 
very proud to hold as an advocate for the oil and gas industry, 
is to get facts in front of people who want to see them. And 
that's really as far as it goes.
    Mr. Tonko. Well, it's always it----
    Chairman Smith. The gentleman's time----
    Mr. Tonko. I reminded that it was the goal of driving the 
debate that the presentation was done.
    Mr. Lomax. I think I said in an earlier answer that the 
people that I am privileged to work with in the oil and gas 
industry, particularly geologists and engineers and other 
technical experts, they want a debate driven by facts, and 
someone has to put the facts--someone has to help disseminate 
the facts, and energy in depth, particularly through its 
website, makes those facts available.
    Chairman Smith. Thank you, Mr. Tonko.
    The gentleman from Georgia, Mr. Loudermilk, is recognized.
    Mr. Loudermilk. Thank you, Mr. Chairman, and thank you to 
all the witnesses who are here today.
    It's interesting we're talking about facts and science and 
true science. Just last week, I was subjected to an interview 
by a member of the media who asked me to make a statement 
regarding global warming and climate change. And as a 
conservative, as an outdoorsman, I made a complete statement, 
that I think we need to look at true science and the facts, 
that we see the science, but at the same time we shouldn't 
pollute our land. We should be good stewards of the 
environment.
    Unfortunately, the reporter decided to parse my statement 
and take out all of the parts that did not support the end of 
which he wanted to make his article. And I'm afraid I'm seeing 
more and more of that to where even in some of the scientific 
communities where in the past opinions--scientific opinions 
were based on true science or fact, but today it seems that 
we're manipulating the facts to support whatever end--political 
end that we want to come up to.
    And so the question goes back to some research from a 
minority staff report on the Senate Environmental and Public 
Works Committee from October of last year. The New York-based 
Park Foundation asked Professor Howarth to write an academic 
article that would make a case that Shell gas was a dangerous, 
polluting fuel. Later that year, the Foundation paid $135,000 
for that study.
    When the study came out, allegations mounted that there was 
data manipulation and unsubstantiated assumptions. In the end, 
it was almost universally condemned by the current 
Administration and others in academia, and later by the 
Environmental Defense Fund. However, environmental activists 
such as Robert Kennedy, Jr., and Bill McKibben of 350.org 
supported the work as proof that hydraulic fracturing was worse 
than coal.
    Dr. Siegel, how can this type of paper ever make it past 
the peer-review process?
    Dr. Siegel. That's a very--that's a good question. I'm glad 
you asked it. I know Bob Howarth quite well. I've debated him 
actually. And he's a very good estuarine ecologist, among other 
things.
    The problem really in the review process, and I speak as 
much as an editor as a contributor to publications, is that--
let me just give you very quickly how it happens. A scientist 
submits a paper to a journal and it goes to the chief editor. 
The chief editor then assigns an associate editor to handle the 
paper. The associate editor then has to find three to five 
reviewers, peer reviewers, who would review it to be nonbiased 
and so forth, to review the paper. Usually the person writing 
the paper suggests three names and the editor or the associate 
editor can assess whether those names would be okay, and then 
they pick some others from outside. It's not unlike NSF and how 
they do their work, okay?
    The problem that's happened is that the publication system 
is so overwhelmed with submittals that a lot of editors simply 
will take whoever is offered as possible reviewers by the 
author in order to actually get the peer review. And that's 
what probably happened in the papers that we're referring to 
with respect to the Health Department ruling in New York.
    In my case, for example, the paper that I submitted just 
got published, you know, I chose a professor at Penn State, who 
is clearly unbiased, National Academy of Science person. I 
chose a couple people from the United States Geological Survey 
who I thought knew a lot about methane and had done independent 
work, and I purposely did not choose from my reviewers who I 
recommended anyone who I thought would be biased, you know, 
towards the oil and gas industry. And I know who those people 
are----
    Mr. Loudermilk. Right.
    Dr. Siegel. --okay? And so I got the review back and there 
are some really good comments and we modify the paper to 
address certain concerns and out it went. But that kind of 
openness that I think I'm proud that I do on my review issues, 
you know, is--sometimes doesn't happen. And clearly there have 
been a lot of papers--a lot--a number of papers that have been 
opposing hydraulic fracking who have been--these papers have 
been really pretty outrageous. And when I ask the editors, 
well, who reviewed these papers, let them out, and I discovered 
that it's a community of people who have common views.
    Mr. Loudermilk. They have an end in mind?
    Dr. Siegel. They have an end in mind. And it's just 
unfortunate. But part of it is the system is clogged. I've 
written a couple essays on this, published in Science and 
Nature, you know, on--there's just too many papers being 
submitted, too few reviewers to do it capably, and so stuff is 
getting out that just really isn't very good.
    Mr. Loudermilk. Thank you. I yield back.
    Chairman Smith. Thank you, Mr. Loudermilk.
    The gentleman from Illinois, Mr. Foster, is recognized.
    Mr. Foster. Thank you, Mr. Chairman.
    I'd like to return to the issue of injection-induced 
seismicity. And just first a general question: What fraction of 
hydrofracking operations depend on wastewater injection for 
their economic viability? So specifically let's imagine that in 
some area it turns out that wastewater injection had to be 
restricted because of seismicity concerns. Is that a mortal 
blow to fracking operations or merely a nuisance? Anyone who 
wants to----
    Mr. Holstein. If I understood your question, over 90 
percent of the wells being drilled now are unconventional oil 
and gas wells, and they frequently use large quantities of 
water, as noted in my testimony. There--because of concerns 
about earthquakes and because of concerns about other problems, 
impacts on taxpayers, for example, in the State of Pennsylvania 
where the publicly owned water treatment works simply couldn't 
handle some of the materials that were coming back--that were 
coming to those treatment works in wastewater, states have been 
racing to put in place new measures to protect the taxpayers 
and their water supplies. But yes.
    And so now in Pennsylvania they don't do injection wells at 
all and the wastewater goes to the State of Ohio mainly that 
still permits deep water--excuse me, deep well injection. So it 
is a common practice----
    Mr. Foster. But typically there are alternatives----
    Mr. Holstein. Yes.
    Mr. Foster. --if it turns out that it's only the wastewater 
injection that's the big problem?
    Mr. Holstein. Industry is working on recycling but you 
can't do the scale of hydraulic fracturing that the industry is 
employing now without these large volumes as far as I know.
    Mr. Foster. Yeah. Now, in areas where there appears to have 
been an increase in seismic activity associated with drilling 
and injection operations, is there evidence of either insurance 
rates going up or property values going down? And if that does 
happen, what is the legal framework for homeowners, you know, 
recovering for their losses?
    Mr. Lomax. I can give you some information about property 
values in Weld County, Colorado, which is the county that has 
more oil and gas wells in it than any other in Colorado. It has 
almost half of the State's 50,000. And property values in Weld 
County have been growing significantly at the same time as 
increased oil and gas development, and there are some 
wastewater disposal wells in Weld County, Colorado. So in Weld 
County there is an increase in values.
    Mr. Foster. Relative comparably situated places without the 
drilling activities? I understand Colorado real estate is doing 
pretty well these days. This is a side-by-side comparison or 
just an absolute statement that----
    Mr. Lomax. This is based on some commentary from the Weld 
County Tax Assessor, who was asked specifically about do you 
see any kind of impact on oil and gas--do you see any impact on 
property values based on proximity to oil and gas operations, 
including wastewater disposal wells? And he has said that they 
don't see any difference between that and the rest of the 
county.
    Mr. Foster. Okay. And it's my understanding there's at 
least anecdotal evidence that in Oklahoma, that there are some 
unhappy local residents who might be--there might be some 
affect there for--of lowering property values. Anyway, I--okay.
    Another thing has to do with the timescale for observing 
and diagnosing seismic activity as a result of drilling or 
wastewater injection. You can imagine different geological 
scenarios, one of which is that you start the wastewater 
injection and you have a very large number of small quakes or 
that there's--nothing happens and that you just simply get a 
stress buildup underground to the point where you get, after a 
long period of time, one giant or relatively large quake.
    And how would you actually correctly identify the causal 
link? It would be easy in the first case because you could 
start and stop the wastewater injection and watch the seismic 
activity start and stop. In the second one, it sounds tough 
because you're talking about something where you could--where a 
large seismic event could be the result of a long--you know, 
decades of drilling. And how do you handle that from a 
liability point of view and from even identifying the causal 
relationship there?
    Ms. Craddick. I think that's what we're all trying to 
figure out at this point because if you look, for instance, in 
the Permian Basin, we've obviously been drilling for a long 
time and don't really see a lot of earthquakes at this point 
out there. But if you look in the Barnett Shale, which is where 
the SMU study is from, we've been drilling actively since 2008 
but the amount of drilling has declined because it's a natural 
gas play by quite a bit.
    So that's where both seismologists and scientists are 
trying to figure out because I'm not sure you can ever 
completely find the answer to your question. That's the biggest 
challenge is your modeling. It depends on the modeling of the 
scientific study, as I've been advised, and the researchers 
looking at that, but it's not--there's not one best model at 
this point.
    Mr. Foster. Okay. My question about the legal framework, 
you know, if in the end it looks like some real damage to the 
seismic stability has been done by these operations, what is 
the legal framework? Do individual homeowners have to sue 
someone who may have gone out of business years ago or what is 
the----
    Chairman Smith. Could we have a brief answer to this 
question? We're going to try to finish before we have to leave 
for votes.
    And who do you--Mr. Foster, who are you directing the 
question to?
    Mr. Foster. Anyone who feels capable of answering it.
    Mr. Holstein. Congressman, I'll say I don't know the legal 
framework but I'd emphasize that this is--exactly makes this 
conundrum--exactly makes my point earlier, which is that the 
oil and gas industry is not static, and therefore, regulatory 
oversight and scientific inquiry must keep up with the ever-
changing elements and challenges associated with this heavy 
industry.
    Mr. Foster. Okay. Thank you.
    Chairman Smith. Okay. Thank you, Mr. Foster.
    If the three remaining Members who have questions can limit 
themselves to three minutes each, we can get you all in. We 
have an hour's worth of votes so I'd like to spare the 
witnesses having to wait for us.
    So, Mr. Moolenaar, you're up next.
    Mr. Moolenaar. Thank you, Mr. Chairman. I'll be real quick.
    Ms. Craddick, thank you for being here. I wanted to get 
your perspective. It sounds like in Texas you work very hard to 
work with the local communities and there's a partnership that 
you've been able to work out in resolving concerns. The 
question about the Federal Government's role, I know in 
Michigan we've been doing fracking for many years and our 
Department of Environmental Quality has done I think a very 
good job communicating with citizens about the technologies 
being used, and I don't see a big role for the Federal 
Government in this.
    What is your sense? I mean you're on the ground floor 
working with this both on the state level but also working with 
local communities. Do you see a role for the Federal Government 
that would in some way address issues that are not being 
addressed currently at the state level?
    Ms. Craddick. We think we do it best at the state, quite 
frankly, Congressman. You know, when you look at Texas, we've 
had a casing fracking rule in place for 50 years. EPA is just 
now proposing one. So they're way behind where the technology 
is. So we think it's better stayed and working with local 
communities.
    At the Railroad Commission, we don't deal with noise 
pollution, traffic issues. Those are local issues, so that's 
where we encourage operators to really work with those local 
communities and be good citizens. So--but I'm not sure where 
EPA or other Federal agencies--and we're blessed that we don't 
have a lot of the Federal lands like some of the Western--other 
Western states do. But most of us who have been active in oil 
and gas for a long time, the states already have rules in place 
and it would add another layer of bureaucracy is the biggest 
concern.
    Thank you.
    Chairman Smith. Thank you, Mr. Moolenaar.
    The gentleman from Texas, Mr. Veasey.
    Mr. Veasey. Chairwoman Craddick, it's good to see you. And 
I wanted to just make--ask you a question about just some of 
the recent activities that have happened in Texas, and I think 
that it's perfectly reasonable that we would want to be able to 
produce any of our fossil fuels and natural resources that we 
have for energy here so we don't have to depend upon the Middle 
East right now, particularly with all the craziness that's 
going on over there. I think it's perfectly reasonable that we 
want to be able to produce our minerals.
    I also think that it's perfectly reasonable, whether you 
are a fisherman or if you're a hunter, or if you just like 
gardening in your backyard, that you want to be able to have 
clean air and clean water. And that is where your agency and 
city councils and what have you, they take those things into 
consideration when trying to pass ordinances.
    Now, in 2009, your hometown of Midland had some issues with 
spacing. The city council there, which is a community that is 
pretty much completely dependent upon oil and gas for the most 
part, they wanted to be able to create an environment where the 
city could thrive and prosper for economic development reasons, 
for the enjoyment of property, and you--they ultimately passed 
ordinances.
    Now, the City of Denton did that, too, and the legislature 
acted and Denton is a much more progressive or liberal city 
than Midland is. Do you think that these cities are being 
treated fairly in regards to being able to outline rules for 
themselves and how they want their city to be able to function? 
Because it just seems like there's some unfairness there. It 
seems like what Denton was trying to do was the same thing that 
Midland was trying to do; they were trying to come up with a 
policy that was good for their particular city.
    Ms. Craddick. Yeah, I think the difference between 
Midland--what Midland has done, which I think most people 
consider reasonable setbacks, that they worked with local 
operators and communities to try to figure out what is--what 
worked for their community. The difference is that in Denton 
they have banned the use of anybody in Denton being able to 
develop their own private property, whereas with a local 
ordinance, you still can with horizontal drilling develop those 
properties because you can have a reasonable setback.
    And look, I think we all agree that being 500 feet or 
whatever a community considers appropriate for a setback to 
protect health and safety is not unreasonable. But then 
hydraulic fracturing in a community, the private property 
rights of those individuals, you've basically banned drilling, 
which historically, as you know, has been the purview of a 
state--the state to regulate it, and so that's the debate right 
now going on in the Texas Legislature and we'll see where they 
get.
    Mr. Veasey. Mr. Chairman, thank you very much.
    Chairman Smith. Thank you, Mr. Veasey.
    And the gentleman from Texas, another gentleman from Texas, 
Mr. Babin is recognized.
    Mr. Babin. Yeah, thank you, Mr. Chairman. I appreciate it.
    Chairman Craddick, thank you for your leadership. Thank all 
you witnesses for being here today. But thank you, Ms. 
Craddick, too, for your leadership of the Railroad Commission 
of Texas.
    You know, Texas has provided about 50 percent of the jobs 
in this country over the last six years, and I think fracking 
has been a huge contributor to that in more ways than one. But 
I represent the 36th District in Texas, in southeast Texas. 
There was an incident in 2012 where an individual claimed that 
the water from their garden hose lit on fire. As it turned out, 
a Texas District Court found that the individual had 
coordinated this stunt with an environmental activist to 
deceive. In this case, the garden hose was attached to the gas 
line.
    How does your commission respond to these types of claims 
when you hear about this?
    Ms. Craddick. If somebody complains that they believe that 
a well has--and their water is on fire----
    Mr. Babin. Right.
    Ms. Craddick. --we're going to go out there and inspect it, 
first and foremost--
    Mr. Babin. Right.
    Ms. Craddick. --get the facts. If there really is a 
problem, we are going to penalize and enforce--make sure, one 
there's remediation for the problem; and two, then penalize or 
enforce the rules that we have available to us.
    Mr. Babin. Okay. Well, as far as the actual number of 
legitimate incidents of concern, perhaps only a handful, from 
what I can read, have studies. How do we put these risks into 
perspective with the enormous economic and societal benefits of 
hydraulic fracking technology?
    Ms. Craddick. Historically, we've drilled over a million 
wells in the State of Texas, and we take all of those 
seriously. We have over 400,000 that are active wells that we 
are regulating as we speak. And----
    Mr. Babin. Yeah.
    Ms. Craddick. --part of our real challenge is to make sure 
we're out inspecting and enforcing our rules but to make sure 
we're also doing it on a reasonable basis, that there are good 
rules in place, people know the rules, but to also make sure 
there are facts involved, and I think----
    Mr. Babin. Yeah.
    Ms. Craddick. --we're a very fact-based agency. We have 
good rules I believe.
    Mr. Babin. Okay. Thank you very much----
    Ms. Craddick. Thank you.
    Mr. Babin. --Mr. Chairman. I know we have to go vote.
    Chairman Smith. Thank you, Mr. Babin.
    Let me thank all of our witnesses today. This has been an 
exceptionally good hearing. And I want to say to you all it's a 
credit to you and a credit to the significance of this subject 
that we had 20 Members appear at this hearing. That's probably 
a new record any time but it's certainly a new record for a 
nine-o'clock-in-the-morning hearing. So I again appreciate your 
presence.
    Now, hydraulic fracturing has occurred safely for decades 
and is largely responsible for an improved economy, expansion 
of energy options, and less reliance on Middle Eastern oil. 
Given this history and importance to our economy, attempts to 
regulate the process should be based on sound science and not 
science fiction.
    The record will remain open for two weeks for additional 
written comments and written questions from Members.
    Again, I thank the Members and the witnesses, and we stand 
adjourned.
    Mr. Holstein. Thank you, Mr. Chairman.
    [Whereupon, at 11:10 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                              Appendix II

                              ----------                              


                   Additional Material for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
